APPENDIX A
STATE OF MINNESOTA
IN SUPREME COURT
STATE OF MINNESOTA,
Appellant,
vs.
MICHAEL ANTHONY CASILLAS,
Respondent.
A19-0576
Appeal from the Minnesota Court of Appeals, Justice
Hudson.
Filed: December 30, 2020
Keith M. Ellison, Attorney General, Saint Paul,
Minnesota; and
James C. Backstrom, Dakota County Attorney, Anna
R. Light, Assistant Dakota County Attorney, for
appellant.
John T. Arechigo, Arechigo & Stokka, P.A., Saint
Paul, Minnesota, for respondent.
Leita Walker, Ballard Spahr LLP, Minneapolis,
Minnesota;
Michael A. Bamberger, Richard M. Zuckerman,
Dentons US LLP, New York City, New York; and
1a

Raleigh Hannah Levine, Mitchell Hamline School of
Law, Saint Paul, Minnesota, for amici curiae
American Booksellers Association, Association of
American
Publishers,
Inc.,
Media
Coalition
Foundations, Inc., and National Press Photographers
Association.
Isabella Salomão Nascimento, Teresa J. Nelson,
American Civil Liberties Union of Minnesota,
Minneapolis, Minnesota, for amicus curiae American
Civil Liberties Union of Minnesota.
Tracy Shoberg, Battered Women’s Justice Project,
Minneapolis, Minnesota;
Rana Alexander, Standpoint, Saint Paul, Minnesota;
Lindsay J. Brice, Minnesota Coalition Against Sexual
Assault, Saint Paul, Minnesota; and
Katherine S. Barrett Wiik, Best & Flanagan LLP,
Minneapolis, Minnesota, for amici curiae Cyber Civil
Rights Initiative, Standpoint, Minnesota Coalition
Against Sexual Assault, and the Battered Women’s
Justice Project.
Travis J. Smith, Murray County Attorney, Kelsey R.
Kelley, Assistant Anoka County Attorney, William C.
Lundy, Certified Student Attorney, Slayton,
Minnesota, for amicus curiae Minnesota County
Attorneys Association.
SYLLABUS

2a

Although Minnesota Statutes § 617.261 (2018),
prohibits more than obscenity, it survives strict
scrutiny and, therefore, is a constitutional restriction
on speech.
Reversed and remanded.
OPINION
HUDSON, Justice.
This case asks us to decide whether Minnesota’s
statute that criminalizes the nonconsensual
dissemination of private sexual images, Minnesota
Statutes § 617.261 (2020), is unconstitutional under
the First Amendment to the United States
Constitution. The district court found the statute was
constitutional because it only prohibits obscenity,
which is unprotected speech. The court of appeals
reversed, holding that the statute prohibits more
than obscenity and is unconstitutionally overbroad
because it criminalizes a substantial amount of
protected speech. Although we agree that Minnesota
Statutes § 617.261 prohibits more than obscenity, we
conclude that the statute does not violate the First
Amendment because it survives strict scrutiny.
Accordingly, we reverse the court of appeals’ decision
and remand to that court for consideration of the
outstanding issues raised by respondent Michael
Anthony Casillas.
FACTS
In 2016, Michael Anthony Casillas and his
girlfriend A.M. were engaged in a three-month
romantic relationship. During this period, A.M. gave
3a

Casillas access to her Dish Network account so he
could watch television at work. After the relationship
ended, Casillas used A.M.’s login information to
access her other online accounts, including her
Verizon cloud account. From the cloud account,
Casillas obtained a photograph and a video that
depicted A.M. engaged in sexual relations with
another adult male.
Casillas sent A.M. a text message threatening to
disseminate both the photograph and video while
concealing his identity through fake email accounts
and IP changers (devices used to obfuscate the
identity of the person accessing the internet). A.M.
told Casillas that sharing the photograph and video
without her consent is a prosecutable offense.
Undeterred by A.M.’s warning, Casillas carried out
his threat by sending the video to 44 individuals and
posting it online.
Casillas was charged with a felony-level violation
of Minnesota Statutes § 617.261, the statute that
criminalizes the nonconsensual dissemination of
private sexual images. In Dakota County District
Court, he moved to dismiss the charge on
constitutional grounds, alleging that the statute is
overbroad,
an
impermissible
content-based
restriction, and void for vagueness. The district court
denied the motion, concluding that the conduct
regulated by the statute is entirely unprotected
obscene speech. The district court also determined
that any degree of overbreadth was insubstantial.
Following a stipulated-facts trial, Casillas was found
guilty and sentenced to 23 months in prison.
The court of appeals reversed, concluding that the
statute prohibits more than obscenity and is
unconstitutionally overbroad because it “proscribes a
substantial amount of protected expressive conduct.”
4a

State v. Casillas, 938 N.W.2d 74, 90 (Minn. App.
2019). Because the court of appeals held that the
statute was overbroad, it did not rule on other issues
raised by Casillas.1 We granted the State’s petition
for further review to decide whether Minnesota
Statutes § 617.261 is unconstitutional under the First
Amendment.
ANALYSIS
Casillas claims Minnesota Statutes § 617.261
violates the First Amendment for two reasons.2 First,
he asserts that the statute is an impermissible
content-based restriction that is not narrowly tailored
to serve a compelling government interest. Second, he
argues that the statute is overbroad because it
punishes the act of dissemination itself without any
accompanying criminal intent or causation of harm.
We review constitutional challenges to statutes
de novo. State v. Jorgenson, 946 N.W.2d 596, 601
(Minn.
2020).
Statutes
are
presumptively
constitutional and we only strike them down “if
absolutely necessary.” Id. When a statute is a
content-based restriction on speech, however, “[t]he
State bears the burden of showing that” the statute
“does not violate the First Amendment.” State v.
Melchert-Dinkel, 844 N.W.2d 13, 18 (Minn. 2014).
To prevail on an overbreadth claim, a challenger
“must establish that ‘a substantial number of [a
statute’s] applications are unconstitutional, judged in
relation to the statute’s plainly legitimate sweep.’”
Casillas also argued before the court of appeals that Minnesota
Statutes § 617.261 is void for vagueness under the due process
clause and challenged his sentence. Casillas, 938 N.W.2d at 78
n.1.
2 The State does not challenge Casillas’s standing in this case.
1

5a

State v. Hensel, 901 N.W.2d 166, 170 (Minn. 2017)
(alteration in original) (quoting United States v.
Stevens, 559 U.S. 460, 473 (2010)). The overbreadth
doctrine is “strong medicine” that is employed
sparingly. Broadrick v. Oklahoma, 413 U.S. 601, 613
(1973).
I.
The First Amendment of the United States
Constitution provides that “Congress shall make no
law . . . abridging the freedom of speech.” U.S. Const.
amend. I.3 The First Amendment’s Free Speech
Clause applies “to the States through the Fourteenth
Amendment.” Virginia v. Black, 538 U.S. 343, 358
(2003).
“The First Amendment generally prevents
government from proscribing speech, or even
expressive conduct, because of disapproval of the
ideas expressed.” R.A.V. v. City of St. Paul, 505 U.S.
377, 382 (1992) (citations omitted). “[T]he
amendment establishes that ‘above all else,’ the
government ‘has no power to restrict expression
because of its message, its ideas, its subject matter,
or its content.’ ” Melchert-Dinkel, 844 N.W.2d at 18
(quoting Police Dep’t of Chi. v. Mosley, 408 U.S. 92, 95
(1972)). The Free Speech Clause is not limited to “the
The Minnesota Constitution has its own free speech provision
which allows “all persons” to “freely speak, write and publish
their sentiments on all subjects.” Minn. Const. art. I, § 3.
Minnesota’s free speech provision “provides protections coextensive with those under the United States Constitution.”
Jorgenson, 946 N.W.2d at 601 n.2; see also State v.
Wicklund,
589 N.W.2d 793, 798–801 (Minn. 1999) (analyzing Minnesota’s
free speech clause and “declin[ing] to extend the free speech
protections of Article I, Section 3 of the Minnesota Constitution
beyond those protections offered by the First Amendment”).
3

6a

spoken or written word,” but extends to other
expressive conduct including videos and photographs.
Texas v. Johnson, 491 U.S. 397, 404 (1989).
Additionally, it “appl[ies] with equal force to speech
or expressive conduct on the Internet.” In re Welfare
of A.J.B., 929 N.W.2d 840, 846 (Minn. 2019).
However, “First Amendment rights are not
absolute under all circumstances.” Greer v. Spock,
424 U.S. 828, 842 (1976) (Powell, J., concurring); see
also Miller v. California, 413 U.S. 15, 23 (1973) (“The
First and Fourteenth Amendments have never been
treated as absolutes.” (citation omitted) (internal
quotation marks omitted)). While “any significant
restriction of First Amendment freedoms carries a
heavy burden ofjustification,” this burden is not an
impossible standard for the State to meet. Greer,
424 U.S. at 843 (Powell, J., concurring). With these
principles in mind, we turn now to Minnesota
Statutes § 617.261.
II.
Minnesota Statutes § 617.261 provides that:
It is a crime to intentionally disseminate
an image of another person who is
depicted in a sexual act or whose
intimate parts are exposed, in whole or
in part, when:
(1) the person is identifiable:
(i) from the image itself, by the
person depicted in the image or by
another person; or
(ii) from
personal
information
displayed in connection with the
image;

7a

(2) the actor knows or reasonably should know
that the person depicted in the image does not
consent to the dissemination; and
(3) the image was obtained or created under
circumstances in which the actor knew or
reasonably should have known the person
depicted had a reasonable expectation of
privacy.
Minn. Stat. § 617.261, subd. 1. Violation of the
statute is a gross misdemeanor. Id., subd. 2(a). Any
one of seven factors, however, can aggravate an
offense to a felony. Id., subd. 2(b). In this case,
Casillas was charged with a felony based on his
intent to harass the victim by disseminating the
private sexual images. Id., subd. 2(b)(5). The statute
also contains seven exemptions to prosecution and an
expansive definitional section. Id., subds. 5, 7.
As a preliminary matter, we must ascertain the
scope of Minnesota Statutes § 617.261 and decide
whether the statute covers any protected speech.
Challenges to unprotected speech restrictions are
analyzed differently than challenges to protected
speech restrictions. State v. Muccio, 890 N.W.2d 914,
920 (Minn. 2017) (explaining that overbreadth
challenges fail if a statute only proscribes
unprotected speech); State v. Crawley, 819 N.W.2d
94, 109 (Minn. 2012) (explaining that content-based
restrictions on unprotected speech are evaluated
differently than similar restrictions on protected
speech).
The State argues that this statute prohibits only
unprotected speech for two reasons. First, the State
asks us to recognize a new category of unprotected
speech: substantial invasions of privacy. Casillas
responds that the State has failed to present
sufficient evidence to support the creation of a new
8a

category of unprotected speech. We agree with
Casillas.
Although the First Amendment provides broad
free speech protection, the United States Supreme
Court has “permitted restrictions upon the content
of speech in a few limited areas, which are ‘of such
slight social value as a step to truth that any benefit
that may be derived from them is clearly outweighed
by the social interest in order and morality.’” R.A.V.,
505 U.S. at 382–83 (quoting Chaplinsky v. New
Hampshire, 315 U.S. 568, 572 (1942)). These limited
areas
include
obscenity,
defamation,
fraud,
incitement, and speech integral to criminal conduct.
Stevens, 559 U.S. at 468. Additional areas of
unprotected speech include child pornography, true
threats, and fighting words. United States v. Alvarez,
567 U.S. 709, 717 (2012). All of the categories are
“well-defined and narrowly limited classes of speech.”
Chaplinsky, 315 U.S. at 571; see also In re Welfare of
A.J.B., 929 N.W.2d at 846 (noting established
exceptions).
The United States Supreme Court has
emphatically rejected “freewheeling” attempts “to
declare new categories of speech outside the scope of
the First Amendment.” Stevens, 559 U.S. at 472; see
also Jorgenson, 946 N.W.2d at 604 (“The United
States Supreme Court has been reluctant to expand
these traditional categories of unprotected speech.”).
It is possible, however, there are “some categories of
speech that have been historically unprotected, but
have not yet been specifically identified or discussed.”
Stevens, 559 U.S. at 472.
To successfully argue for a new unprotected
category of speech, the proponent must present
“persuasive evidence that a novel restriction on
content is part of a long (if heretofore unrecognized)
9a

tradition of proscription.” Brown v. Ent. Merchs. Ass’n,
564 U.S. 786, 792 (2011). This is a heavy burden to
bear, and the Supreme Court has recently rejected
creating new categories of unprotected speech for
animal cruelty, Stevens, 559 U.S. at 472, depictions of
excessive violence, Brown, 564 U.S. at 791–93, and
false statements, Alvarez, 567 U.S. at 722–23.
In this case, we conclude that the State has failed
to carry the heavy burden required to provide a basis
to establish a new category of unprotected speech.
Although we recognize that developments in both law
and society may merit a reevaluation of privacy
interests within the context of the First Amendment,
there is not enough evidence or established guidance
to categorically remove constitutional protection for
speech that constitutes a substantial invasion of
privacy. See Brown, 564 U.S. at 790 (“And whatever
the challenges of applying the Constitution to everadvancing technology, the basic principles of freedom
of speech and the press, like the First Amendment’s
command, do not vary when a new and different
medium for communication appears.” (citation
omitted) (internal quotation marks omitted)); see also
State v. VanBuren, 214 A.3d 791, 807 (Vt. 2019)
(explaining the decision of the Vermont Supreme
Court declining to recognize invasions of privacy as
unprotected speech); People v. Austin, 155 N.E.3d 439,
454–55 (Ill. 2019) (explaining a similar decision by
Illinois Supreme Court), cert. denied, 141 S. Ct. 233
(2020). Moreover, the State’s proposed category is
actually based on the speech’s transmission method
and not its underlying content. Categories of
unprotected speech are determined by their content
and not by their method of transmission. See Brown,
564 U.S.at 790–91.

10a

Second, the State argues that section 617.261
regulates only speech that falls within historically
recognized categories of unprotected speech. Before
the district court, the State argued that Minnesota
Statutes § 617.261 prohibits only speech that is
considered obscene. The district court agreed with the
State, but the court of appeals rejected that
argument. The State has now shifted its argument
and contends that the statute proscribes speech
within three historically recognized categories:
obscenity, speech integral to criminal conduct, and
child pornography. Casillas counters the State’s
argument by pointing to numerous situations where
the statute criminalizes protected speech. We agree
with Casillas that the statute covers some protected
speech.
The State undercuts its own argument by stating
that much of the speech covered by this statute is
unprotected. For a statute to be exempted from the
First Amendment, all of the speech proscribed by the
statute must be unprotected. See Muccio, 890 N.W.2d
at 927 (explaining that an overbreadth analysis must
continue when a statute “regulates some speech that
the First Amendment protects” (emphasis added));
see also Crawley, 819 N.W.2d at 109–10 (proceeding
with an unprotected speech analysis only after
construing a statute to solely proscribe defamation).
Assuming the State intended to argue that by
criminalizing the nonconsensual dissemination of
private sexual images the statuteexclusively prohibits
unprotected speech, we still conclude that its
argument falls short.
The State first argues that Minnesota Statutes §
617.261 covers only unprotected obscene speech.
“[L]ewd and obscene [expressions] . . . are no
essential part of any exposition of ideas, and are of
11a

such slight social value as a step to truth that any
benefit that may be derived from them is clearly
outweighed by the social interest in order and
morality.” Chaplinsky, 315 U.S. at 572. Whether
something qualifies as obscene involves a three-part
test:
(a) whether the average person,
applying contemporary community
standards would find that the work,
taken as a whole, appeals to the
prurient interest;
(b) whether the work depicts or
describes, in a patently offensive way,
sexual conduct specifically defined by
the applicable state law; and (c)
whether the work, taken as a whole,
lacks
serious
literary,
artistic,
political, or scientific value.
Miller, 413 U.S. at 24 (citations omitted) (internal
quotation marks omitted).4 However, nudity “in and
of itself is not obscene.” Koppinger v. City of
Fairmont, 248 N.W.2d 708, 712 n.3 (Minn. 1976); see
Knudtson v. City of Coates, 519 N.W.2d 166, 169
(Minn. 1994) (acknowledging that “nudity is prevalent
in advertising, movies and video”).
Like the court of appeals, we conclude that the
district court erred when it determined that the
speech regulated by the statute falls only within the
obscenity category of unprotected speech. If an adult
shares an image of another adult’s intimate parts
The State argues that even if an image does not appeal to the
prurient interest, the nonconsensual nature of the dissemination
makes the image obscene because it is offensive and harmful to
the victim. The court of appeals properly rejected this argument
because it is inconsistent with the Miller definition of obscenity.
See Casillas, 938 N.W.2d at 83.
4

12a

without the other adult’s consent, the image may not
be “patently offensive” or “appeal to the prurient
interest.” See Muccio, 890 N.W.2d at 925 (explaining
that for an image to be obscene it must involve a
“morbid, shameful interest in sex”) (quoting State v.
Davidson, 481 N.W.2d 51, 59 (Minn. 1992)). “Sexual
expression” can be “indecent but not obscene” and
therefore “protected by the First Amendment.” Sable
Commc’ns of Cal., Inc. v. FCC, 492 U.S. 115, 126
(1989); see also Koppinger, 248 N.W.2d at 712 n.3.
Similarly, if a man shares a picture of his wife breastfeeding their baby against her wishes and part of her
nipple is exposed, this picture would not qualify as
appealing “to the prurient interest,” butmay fall under
the statute. There are dozens of other examples of
non-obscene nude photos that are criminalized by this
statute. Consequently, the district court erred when
it determined that the statute regulates only
obscenity.
The next category suggested by the State is speech
integral to criminal conduct. “Speech is integral to
criminal conduct when it ‘is intended to induce or
commence illegal activities,’ such as ‘conspiracy,
incitement, and solicitation.’” Muccio, 890 N.W.2d at
923 (quoting United States v. Williams, 553 U.S. 285,
298 (2008)). Speech in this category is unprotected
when it is “directly linked to and designed to
facilitate the commission of a crime.” State v.
Washington-Davis, 881 N.W.2d 531, 538 (Minn.
2016).
We conclude that almost none of the speech
encompassed by this statute is speech integral to
criminal conduct.5 Private sexual images are not
We do not foreclose the possibility that there are some
instances when speech criminalized by this statute will be
5

13a

generally used to “facilitate the commission of a
crime.” Id. They are not “[o]ffers to engage in illegal
transactions” nor are they “requests to obtain
unlawful material.” Williams, 553 U.S. at 297–98.
Therefore, they do not categorically qualify as speech
integral to criminal conduct.
The final category of unprotected speech
suggested by the State is child pornography.
Pornography featuring real children falls outside the
scope of the First Amendment and can be banned.
Ashcroft v. Free Speech Coal., 535 U.S. 234, 249–50
(2002). This category is specifically designed to
protect children from sexual abuse or sexual
exploitation. Id. at 249. This argument is easily
rejected because the majority of private sexual
images depict nude adults.
It is not difficult to imagine private sexual images
that would qualify as protected speech but are
criminalized by this statute. Envision a man and a
woman who go on a date. The man sends the woman a
nude photo of himself after the date with instructions
not to share the picture. The woman still decides to
share or disseminate it. The photo is not obscene
because it does not depict a “morbid, shameful
interest in sex.” Davidson, 481 N.W.2d at 59. The
photo is not speech integral to criminal conduct
because it is not “directly linked to and designed to
facilitate the commission of a crime.” WashingtonDavis, 881 N.W.2d at 538. Finally, the photo does not
depict children and does not qualify as child
pornography. Yet, the sharing of this photograph
would still be criminalized under the nonconsensual
speech integral to criminal conduct. For example, an
advertisement for prostitution may involve the nonconsensual
dissemination of a private sexual image. These situations,
however, are few compared to the statute’s overall reach.

14a

dissemination of private sexual images statute.
Ultimately, we reject the State’s argument that the
statute proscribes only unprotected speech.
III.
Having determined that Minnesota Statutes §
617.261 covers some protected speech, we turn to
Casillas’s argument that the statute is a contentbased restriction and that does not survive strict
scrutiny.6 The State counters by arguing that the
statute is a content-neutral time, place, and manner
restriction and therefore it need only survive an
intermediate scrutiny analysis.
A content-based restriction is one “that target[s]
speech based on its communicative content.” Reed v.
Town of Gilbert, 576 U.S. 155, 163 (2015). “[I]f a law
applies to particular speech because of the topic
discussed or the idea or message expressed,” it is a
content-based regulation. Id. Some of these
restrictions are content-based on their face, but
“others are more subtle, defining regulated speech by
its function or purpose.” Id. Either way, contentbased
restrictions
“are
presumptively
unconstitutional and may be justified only if the
government proves that they are narrowly tailored to
serve compelling state interests.” Id.; see also Boos v.
Barry, 485 U.S. 312, 334 (1988). Under a strict
scrutiny analysis, narrow tailoring means that the
statute must be “the least restrictive means for
Even if we accept Casillas’s argument, we note that contentbased restrictions are not prohibited per se and that
“governmental regulation based on subject matter has been
approved in narrow circumstances.” Consol. Edison Co. of N.Y.,
Inc. v. Pub. Serv. Comm’n of N.Y., 447 U.S. 530, 538 (1980); see
also Burson v. Freeman, 504 U.S. 191, 211 (1992).
6

15a

addressing” the government’s interest. United States
v. Playboy Ent. Grp., Inc., 529 U.S. 803, 827 (2000). A
statute, however, does not need to be “perfectly
tailored” to survive strict scrutiny. Williams-Yulee v.
Fla. Bar, 575 U.S. 433, 454 (2015) (quoting Burson v.
Freeman, 504 U.S. 191, 209 (1992)).
A content-neutral restriction is one that “is . . .
neutral on its face.” Reed, 576 U.S. at 165. In other
words, these types of restrictions “are justified
without reference to the content of the regulated
speech.” Clark v. Cmty. for Creative Non-Violence, 468
U.S. 288, 293 (1984). Content-neutral restrictions are
constitutional if “they are narrowly tailored to serve a
significant governmental interest, and . . . they leave
open ample alternative channels for communication of
the information.” Id. Under an intermediate scrutiny
analysis, narrow tailoring means that the
restriction is “not substantially broader than
necessary to achieve the government’s interest,
however, the regulation will not be invalid simply
because a court concludes that the government’s
interest could be adequately served by some lessspeech-restrictive alternative.” Ward v. Rock Against
Racism, 491 U.S. 781,800 (1989).
In this case, we need not determine whether
Minnesota Statutes § 617.261 is content-based or
content-neutral because we find that the State has
met its burden under the more searching strict
scrutiny analysis.
Our strict scrutiny analysis begins by evaluating
the strength of the governmental interest in
prohibiting the nonconsensual dissemination of
private sexual images. To satisfy strict scrutiny, the
State must show that it has a compelling interest in
passing the statute. Brown, 564 U.S. at 799. This
means “[t]he State must specifically identify an
16a

‘actual problem’ in need of solving.” Id. (quoting
Playboy Ent. Grp., 529 U.S. at 822–23). The problem
being solved “must be paramount” and “of vital
importance.” Elrod v. Burns, 427 U.S. 347, 362 (1976).
In this case, we conclude that the State has identified
an “actual problem” of paramount importance in the
nonconsensual dissemination of private sexual
images and is working within its well-recognized
authority to safeguard its citizens’ health and safety
through Minnesota Statutes § 617.261. See Hill v.
Colorado, 530 U.S. 703, 715 (2000) (“It is a traditional
exercise of the States’ police powers to protect the
health and safety of their citizens.” (citation omitted)
(internal quotation marks omitted)); see also Minn.
Const. art. I, § 1 (explaining that Minnesota’s
“[g]overnment is instituted for the security, benefit
and protection of the people”).
The nonconsensual dissemination of private
sexual images generally “involves images originally
obtained without consent, such as by use of hidden
cameras or victim coercion, and images originally
obtained with consent, usually within the context of a
private or confidential relationship. Once obtained,
these images are subsequently distributed without
consent.” Austin, 155 N.E.3d at 451. This
dissemination is commonly referred to as “revenge
porn.”7 While “[o]ne’s naked body is a very private
The phrase “revenge porn” is misleading. The nonconsensual
dissemination of private sexual images statute does not require
personal vengeance as a motive. See Minn. Stat. § 617.261. Nor
does the statute require that an image qualify as pornographic
to be prohibited. Id; see also Austin, 155 N.E.3d at 451 (noting
the term “revenge porn” is misleading because “revenge”
suggests vengeance, but “perpetrators may be motivated by a
desire for profit, notoriety, entertainment, or for no specific
reason at all,” and “porn” ismisleading in suggesting “that visual
7

17a

part of one’s person and generally known to others
only by choice,” the nonconsensual dissemination of
private sexual images removes this choice from a
victim and exposes the victim’s most intimate
moments to others against the victim’s will. Lake
v. Wal-Mart Stores, Inc., 582 N.W.2d 231, 235 (Minn.
1998) (emphasis added).
Those who are unwillingly exposed to their
friends, family, bosses, co-workers, teachers, fellow
students, or random strangers on the internet are
often deeply and permanently scarred by the
experience. Victims suffer from post-traumatic stress
disorder, anxiety, depression, despair, loneliness,
alcoholism, drug abuse, and significant losses in selfesteem, confidence, and trust. Samantha Bates,
Revenge Porn and Mental Health: A Qualitative
Analysis of the Mental Health Effects of Revenge Porn
on Female Survivors, 12 Feminist Criminology 9
(2016). Survivors often require therapy and medical
intervention. Id. The effects of revenge porn are so
profound that victims have psychological profiles that
match sexual assault survivors. Id. at 3. Tragically,
not every victim survives this experience and some
commit suicide as a result of their exposure online.
Sophia Ankel, Many Revenge Porn Victims Consider
Suicide—Why Aren’t Schools Doing More to Stop It?,
The Guardian (May 7, 2018, 12:05 PM), https://www.
theguardian.com/lifeandstyle/2018/may/07/manyrevenge-porn-victims-consider-suicide-why-arentschools-doing-more-to-stop-it [opinion attachment].
Those who survive this harrowing experience
without significant health consequences still may
have their reputations permanently tarnished. Many
depictions of nudity
pornographic”).

or

sexual

18a

activity

are

inherently

victims have a scarlet letter affixed to their resumes
when applying for jobs or additional educational
opportunities. VanBuren, 214 A.3d at 810–11. When
a simple internet search for a victim’s name displays
multiple nude images, employers frequently put the
victim’s application aside. Id. Employers have fired
employees who have been victimized by their former
partners. Id. Losing employment is a difficult issue
for any person, but is especially problematic when
victims need employment-sponsored health benefits
to deal with the trauma of being exposed online.
Chartbook Section 2: Trends and Variation in Health
Insurance Coverage, Minn. Dep’t of Health,
https://www.health.state.mn.us/data/
economics/chartbook/docs/section2.pdf
(estimating
that 58 percent of Minnesotans obtain their health
insurance from their employer).
“[I]t is difficult to imagine something more private
than images depicting an individual engaging in
sexual conduct, or of a person’s genitals, anus, or
pubic area.” VanBuren, 214 A.3d at 810. Even if a
victim is fortunate enough to avoid the serious
mental, emotional, economic, and physical effects, the
person will still suffer from humiliation and
embarrassment. The harm largely speaks for itself.
Making matters worse, this problem is widespread
and continuously expanding. In 2017, a U.S. survey
conducted by the Cyber Civil Rights Initiative found
that one in eight survey participants had been the
victim of or threatened with nonconsensual
dissemination of private sexual images. Brief of Amici
Curiae Cyber Civil Rights Initiative et al. at 7, State
v. Casillas, No. A19-0576 (filed Apr. 23, 2020).
Thousands of websites feature revenge porn, and
social media platforms, such as Twitter, Facebook,
Instagram, and Snapchat, allow for explicit content to
19a

spread rapidly. Id. (estimating the number of revenge
porn websites at nearly 10,000).
Based on this broad and direct threat to its
citizens’ health and safety, we find that the State has
carried its burden of showing a compelling
governmental
interest
in
criminalizing
the
nonconsensual dissemination of private sexual
images. See Melchert- Dinkel, 844 N.W.2d at 23
(finding the State has a compelling interest in
protecting its citizens from suicide); Sawh v. City of
Lino Lakes, 823 N.W.2d 627, 635 (Minn. 2012)
(“There is no question that the [government] has a
compelling interest in ensuring the health and safety
of its citizens.”); Bendorf v. Comm’r of Pub. Safety,
727 N.W.2d 410, 417 (Minn. 2007) (finding the State
has a compelling interest in protecting its citizens
from drunk driving); In re Linehan, 594 N.W.2d 867,
872 (Minn. 1999) (“States have a compelling interest
in . . . protecting the public from sexual violence.”).
Next, we analyze whether Minnesota Statutes §
617.261 is “narrowly tailored” and “the least
restrictive means” to solve the underlying problem.
We conclude that the State has carried this burden.
First, the Legislature explicitly defined the type of
image that is criminalized. The image must be “of
another person who is depicted in a sexual act or
whose intimate parts are exposed.” Minn. Stat. §
617.261, subd. 1. The terms “sexual act,” “intimate
parts,” and “image” are all expressly defined. Id.,
subd. 7(d)–(e), (g). Moreover, the person depicted in
the image must be identifiable “from the image itself .
. . or . . . from personal information displayed in
connection with the image.” Id., subd. 1(1)(i)–(ii).
Furthermore, the image has to be “obtained or
created under circumstances in which the actor knew
or reasonably should have known the person depicted
20a

had a reasonable expectation of privacy.” Id., subd.
1(3). Images that do not clear each of these hurdles
fall outside the scope of the statute.
Second, a defendant must “intentionally”
disseminate the image. Minn. Stat. § 617.261, subd.
1. This mens rea requirement means that a
defendant
must
knowingly
and
voluntarily
disseminate a private sexual image; negligent,
accidental, or even reckless distributions are not
proscribed. This specific intent requirement further
narrows the statute and keeps it from “target[ing]
broad categories of speech.” Muccio, 890 N.W.2d at
928.
Third, the statute has seven enumerated
exemptions. Minn. Stat. § 617.261, subd. 5(1)–(7).
Some protected speech is taken outside of the scope of
the statute by subdivision 5. For example, the statute
exempts prosecution for image dissemination
pursuant to essential law enforcement functions
performed by both citizens and public safety
personnel. Id., subd. 5(1)–(2). The statute allows for
private sexual images to be distributed “in the course
of seeking or receiving medical or mental health
treatment.” Id., subd. 5(3). Advertisers, booksellers,
and artists are protected because images “obtained in
a commercial setting” for legal purposes fall outside
the statute’s reach. Id., subd. 5(4). Journalists cannot
be prosecuted because there are exemptions for the
dissemination of private sexual images that involve
matters of public interest and “exposure[s] in public.”
Id., subd. 5(4)–(5).8 Educators and scientists are
Casillas argues that a photojournalist who posts nude images
of battle scenes or natural disasters could be prosecuted under
Minnesota Statutes § 617.261. But this contention ignores the
language of the statute. Wars and natural disasters are plainly
matters of public interest and sharing information about these
8

21a

protected because there is an exemption for private
sexual images disseminated for “legitimate scientific
research or educational purposes.” Id., subd. 5(6).
Accordingly, even if protected speech falls within the
ambit of subdivision one and a disseminator acted
with the requisite mens rea, that person may still be
exempt from prosecution under these precise
exceptions.
Fourth, to be prosecuted under the statute, a
disseminator must act without consent.Id., subd. 1(2).
This provision provides additional protection for
commercial advertisements, certain adult films,
artistic works, and other creative expression outside
thestatute’s scope.9
Finally, this statute only encompasses private
speech. “[R]estricting speech on purely private
matters does not implicate the same constitutional
concerns as limiting speech on matters of public
interest.” Snyder v. Phelps, 562 U.S. 443, 452 (2011).
“Speech on matters of purely private concern is of less
First Amendment concern” than speech on public
matters that go to the heart of our democratic
system. Dun & Bradstreet, Inc. v. Greenmoss
Builders, Inc., 472 U.S. 749, 759 (1985). Unlike the
overly broad statutes at issue in our recent decisions
in In re Welfare of A.J.B. and Jorgenson, this statute
covers only private sexual images and does not
prohibit speech that is “at the core of protected First
Amendment speech.” 929 N.W.2d at 853; see 946
N.W.2d at 605.
events is a “lawful public purpose.” Minn. Stat. § 617.261, subd.
5(5).
9 In our view, it is not difficult to obtain consent before
disseminating a private sexual image. Simply ask permission.
We cannot imagine an emergency situation that requires the
immediate dissemination of a private sexual image.

22a

Because the statute proscribes only private speech
that (1) is intentionally disseminated without
consent, (2) falls within numerous statutory
definitions, and (3) is outside of the seven broad
exemptions, we find the statute to be narrowly
tailored.10
The Legislature’s decision to enact the
nonconsensual dissemination statute “was caused by
something more than a mere desire to avoid the
discomfort
and
unpleasantness
that always
accompany an unpopular viewpoint.” Tinker v. Des
Moines Indep. Cmty. Sch. Dist., 393 U.S. 503, 509
(1969). Instead, the statute was enacted to prevent
the permanent and severe harms caused by the
nonconsensual dissemination of private sexual
images. While we acknowledge and “reaffirm that it
is . . . rare” for a content-based restriction to survive
strict scrutiny, this restriction is one of those rare
Casillas argues that rather than criminalizing the
nonconsensual dissemination of private sexual images, a
narrower approach would be for the Legislature to provide civil
remedies only. However, the permissible constitutional scope of
civil remedies and criminal remedies is the same. “What a State
may not constitutionally bring about by means of a criminal
statute is likewise beyond the reach of its civil law . . . .” N.Y.
Times Co. v. Sullivan, 376 U.S. 254, 277 (1964). In fact, criminal
charges may be the preferable method for proscribing this type
of behavior because “people charged criminally enjoy greater
procedural safeguards than those facing civil suit, and the
prospect of steep civil damages can chill speech even more
than that of criminal prosecution.” VanBuren, 214 A.3d at
814. We are additionally concerned that a victim’s identity may
become publicized by a civil suit, thus leading to greater harm.
See Austin, 155 N.E.3d at 463 (citing Erica Souza, “For His Eyes
Only”: Why Federal Legislation is Needed to Combat Revenge
Porn, 23 UCLA Women’s L.J. 101, 111–15 (2016); Danielle
Keats Citron & Mary Anne Franks, Criminalizing Revenge
Porn, 49 Wake Forest L. Rev. 345, 357–59 (2014)).
10

23a

cases. Burson, 504 U.S. at 211 (upholding a contentbased Tennessee law under a strict scrutiny
analysis); see also Williams-Yulee, 575 U.S. at 457
(upholding a Florida speech restriction under a strict
scrutiny analysis). In sum, even if we assume that
the statute creates a content-based restriction, the
State has satisfied its burden of showing that the
restriction does not violate the First Amendment
because the restriction is justified by a compelling
government interest and is narrowly tailored to serve
that interest.11
IV.
Next, Casillas argues that Minnesota Statutes §
617.261 is unconstitutionally overbroad because it
burdens a substantial amount of protected speech.
The State counters by arguing that the amount of
criminalized protected speech is minimal when
compared to the statute’s legitimate sweep. The court
of appeals agreed with Casillas and rested its entire
opinion on a finding of overbreadth. Casillas, 938
N.W.2d at 88–90.
We note that the relationship between the
overbreadth doctrine and a scrutiny analysis is
unclear. Marc Rohr, Parallel Doctrinal Bars: The
Unexplained
Relationship
Between
Facial
Overbreadth And “Scrutiny” Analysis in the Law of
We further note that Minnesota Statutes § 617.261 is not
“exceptional.” McCullen v. Coakley, 573 U.S. 464, 490 (2014)
(noting that a Massachusetts statute “raise[d] concerns” over its
tailoring because it was the only statute of its kind). As amici
note, 46 other state legislatures have passed similar statutes
prohibiting the nonconsensual dissemination of private sexual
images. Brief of Amici Curiae Cyber Civil Rights Initiative et al.
at 4, State v. Casillas, No. A19-0576 (filed Apr. 23, 2020).
11

24a

Freedom of Speech, 11 Elon L. Rev. 95, 109 (2019).
There are instances when lower courts have made a
decision based on strict scrutiny and the United
States Supreme Court has affirmed on overbreadth
grounds. Compare Stevens, 559 U.S. at 467, 482
(upholding the lower court’s strict scrutiny analysis
using the overbreadth doctrine) with United States
v. Stevens, 533 F.3d 218, 232–35 (3d Cir. 2008)
(deciding the constitutionality of a dog-fighting
statute on strict scrutiny grounds alone). In other
cases, some members of the United States Supreme
Court conduct a scrutiny analysis only and then other
members evaluate a statute’s overbreadth. Compare
Frisby v. Schultz, 487 U.S. 474, 488 (1988) (upholding
a statute under intermediate scrutiny) with id. at 499
(Stevens, J., dissenting) (concluding the statute is
overbroad). This variation in analytical approaches
leads to understandable overlap in the relevant legal
principles. See Austin, 155 N.E.3d at 467 (“Under
intermediate scrutiny, a content-neutral statute is
overbroad only when it burdens substantially more
speech than necessary to advance its substantial
governmental interest.”). As Professor Marc Rohr
summarizes: “The relationship of these two modes of
free-speech analysis has never been adequately
explained by the Supreme Court.” Rohr, supra, at
109.
Our most recent First Amendment cases have not
given us the opportunity to clarify the relationship
between the two doctrines. See Jorgenson, 946
N.W.2d at 600 (presenting only an overbreadth
challenge to Minnesota’s criminal coercion statute);
In re Welfare of A.J.B., 929 N.W.2d at 844 (presenting
only an overbreadth challenge to Minnesota’s mailharassment and stalking-by-mail statutes); Hensel,
901 N.W.2d at 170 (presenting only an overbreadth
25a

challenge to Minnesota’s disturbance-of-a-meeting-orassembly statute); Muccio, 890 N.W.2d at 929
(presenting only an overbreadth challenge to
Minnesota’s statute prohibiting sexually explicit
communications with children); Washington-Davis,
881 N.W.2d at 534 (presenting only an overbreadth
challenge to Minnesota’s statute prohibiting
solicitation and promotion of prostitution).
In Melchert-Dinkel, however, the challenge to a
statute that criminalized “assisting, advising, or
encouraging” suicide raised both a scrutiny and
overbreadth argument. 844 N.W.2d at 18. The court
of appeals ruled that the statute was constitutionally
permissible because it was not substantially
overbroad. State v. Melchert-Dinkel, 816 N.W.2d
703, 715–17 (Minn. App. 2012). Upon appeal, we
partially severed the statute and then upheld the
reformulated statute under a scrutiny analysis
without discussing overbreadth. Melchert-Dinkel,
844 N.W.2d at 24.
Melchert-Dinkel is instructive in helping us
resolve this case. When a statute is challenged on
both scrutiny and overbreadth grounds, a scrutiny
analysis should be conducted first. This approach is
best because a statute that survives a scrutiny
analysis will necessarily survive the overbreadth
challenge.
“An overbreadth challenge is a facial attack on a
statute in which the challenger must establish that ‘a
substantial number of [a statute’s] applications are
unconstitutional, judged in relation to the statute’s
plainly legitimate sweep.’” Hensel, 901 N.W.2d at 170
(alteration in original) (quoting Stevens, 559 U.S. at
473). If a statute survives a scrutiny analysis, the
court has already determined that all of the statute’s
applications are constitutional. Neither Casillas nor
26a

his supporting amici identify a case where a statute
survived strict scrutiny but was struck down as
unconstitutionally overbroad. We have great
difficulty imagining such a scenario. Therefore, we
conclude that an overbreadth analysis is needlessly
redundant if a statute has already survived strict
scrutiny review.
This analytical framework is further supported
by the United States Supreme Court’s decision in
Burson v. Freeman. In Burson, the Court was faced
with a First Amendment challenge to a Tennessee
statute that prohibited political speech within 100
feet of a polling place. 504 U.S. at 193–94. The
Supreme Court upheld the statute exclusively on
strict
scrutiny
grounds
without
discussing
overbreadth. Id. at 196–211. As previously
mentioned, a successful overbreadth challenge
requires that a “substantial amount” of protected
speech is criminalized under a given statute. In re
Welfare of A.J.B., 929 N.W.2d at 847. There is no
doubt that the Tennessee statute in Burson
criminalized a substantial amount of protected
speech, but it was upheld because it was narrowly
tailored and served a compelling governmental
interest. See Burson, 504 U.S. at 211. While neither
party raised the issue in that case, an overbreadth
challenge would have been fruitless because the
restriction on protected speech was already
determined to be constitutional.
The constitutional right to free speech stands as a
bedrock for our democracy. This sacred right shields
our citizens from prosecution and imprisonment while
they debate and discuss the pertinent issues of our
time. Even the most unpopular ideas and expressions
find refuge under the First Amendment’s umbrella.
To protect this fundamental promise, we evaluate
27a

any encroachment on free speech with both caution
and skepticism.
The nonconsensual dissemination of private
sexual images, however, presents a grave threat to
everyday Minnesotans whose lives are affected by the
single click of a button. When faced with such a
serious problem, the government is allowed to protect
the lives of its citizens without offending the First
Amendment as long as it does so in a narrow fashion.
Minnesota Statutes § 617.261 is a representation of
this constitutional compromise and adequately
balances the fundamental right to free speech with the
citizens’right to health and safety.
CONCLUSION
For the foregoing reasons, we reverse the decision
of the court of appeals and remand to the court of
appeals for consideration and decision of the
remaining issues raised in this appeal.
Reversed and remanded.

28a

Women
Many revenge porn victims consider suicide – why
aren’t schools doing more to stop it?
Sophia Ankel
Mon 7 May 2018 12:05 EDT
Sarah Richards was 15 when naked pictures of
her were shared around her school. Months earlier,
her then-boyfriend had suggested they have a Skype
video call. “I was super excited to be dating this
person,” she says. “He was part of a group of boys
that I really wanted to be friends with because I
thought they were so cool. I had my first sexual
experience with him, so I trusted him.”
Feeling confident and safe in the comfort of her
own bedroom, she recalls how she got undressed for
him on camera, making sure not to expose anything
below her waist. “I just thought this was fun and
innocent. It wasn’t pictures, so it seemed less
permanent.” It wasn’t until months later, after
breaking up with him, that Richards found out that
screenshots had been taken without her consent.
She was ridiculed on social media, with Twitter
posts, Facebook mentions and even lengthy YouTube
videos dedicated to making fun of her developing
adolescent body. The campaign was accompanied by a
hashtag and a logo that were based on an intimate
body part. The bullying went on for months.
Richards, who is now 21, felt trapped: “A lot of the
abuse was online. And I still had to go to school every
day. I was super angry and upset, but I was also
racked with guilt because I just thought: I brought
this on myself.”
A report last year by the National Education
Union (NEU) an the pressure group UK Feminista
29a

revealed that more than a third of girls have
experienced some form of sexual harassment in UK
mixed-sex schools. An issue connected to this – and a
growing concern in schools – is non-consensual
sharing of nude images, otherwise known as revenge
porn. According to a survey by the charity Childnet
International, more than half of UK teenagers have
friends who shared intimate images of someone they
know and 14% of girls say that they have been
pressured to share nude images in the past year.
Technology, while central to young people’s lives,
is a key factor in the emergence of these new forms of
sexual harassment. Victims can’t hang up the phone
to an online assault; it continues without them,
lingering in cyberspace for years. Adolescents
exploring their sexuality isn’t new, but the fact that
their sexual experimentation takes place in an online
world where the footprints are easily stored doesn’t
make the process any easier. The backlash can be
fatal: 51% of US revenge-porn victims have
contemplated suicide, according to research carried
out by the campaign End Revenge Porn.
Schools are only now playing catch-up – the
sexual health curriculum in the UK has long been
outdated. Presently, only students attending localauthority-run secondary schools – which make up
about a third of schools overall – are guaranteed sex
education. A survey of 16- to 24-year-olds by the
Terrence Higgins Trust revealed that one in seven
students had not received any education on the
subject of sex and relationships, while more than half
of pupils received sex education no more than once a
year during their education.
The current statutory guidance on sex education
was published in 2000. The curriculum includes
information on heterosexual relationships, covering
30a

what intercourse looks like, how to prevent
pregnancy and sexually transmitted diseases. It
doesn’t, however, cover other sexual orientations,
sexting, online abuse, revenge porn or what consent
in the digital realm looks like.
It is this lack of understanding that has led
organisations such as the Schools Consent Project to
take charge in the past couple of years. The charity,
founded in 2014, leads regular workshops in schools
in the UK, providing students with the legal
definitions of consent and key sexual offences such as
sexting and revenge porn. Founder and director Kate
Parker says: “We want young people to appreciate
that consent is the bedrock to any sexual interaction;
it distinguishes a sexual act from a sexual crime.”
In March 2017, the Department of Education
finally confirmed that updated relationships and sex
education will be made compulsory for all schools in
England as early as September 2019. It’s a step
forward, but the process won’t be easy: there is
currently a huge gap in the data for sexual
harassment in schools, due to a lack of reporting and
because this type of abuse is not recognised by the
curriculum. “When it comes to policymakers, very
often they want to see stats and figures, but data on
gender-based violence in schools is difficult to
gather”, says Lilia Giugni, the CEO of GenPol, a
thinktank that this year published a key policy
paper that explicitly links sex education to genderbased violence.
Not only do pupils need to be taught these vital
lessons, but teachers and schools must also begin to
become familiar with how to deal with cases of sexual
harassment on their premises. According to the NEU
report, only a third (38%) of secondary school
teachers in mixed-sex schools are aware of students
31a

being sent or exposed to pornography in schools and
only 20% received this knowledge as part of their
initial teacher training.
Richards never reported what happened to her to
a teacher. “I didn’t tell the school, or any authority,”
she says. “I didn’t know that it was even possible to
take any action, to be honest. But I do regret it
because I suppressed so much. It wasn’t until the last
few years that I realised that it is the cause of a lot of
bad emotions and anxieties.”
In the digital age, UK schools must begin to adapt
and recognise the damage caused to young people by
these new, online forms of sexual harassment. This
begins with accepting that revenge porn exists in
schools. For Richards, a formal process that
addresses the issue frankly rather than making it a
taboo, is what is needed before anything else. “I
would really love to see more stories about others’
experiences because it would normalise the situation
for me and give peace of mind to my 16-year-old self.
I still need closure.”
Some names have been changed.
In the UK, Samaritans can be contacted on 116
123. In the US, the National Suicide Prevention
Lifeline is 1-800-273-8255. In Australia, the crisis
support service Lifeline is 13 11 14. Other
international suicide helplines can be found at
befrienders.org.

32a

APPENDIX B
STATE OF MINNESOTA
IN COURT OF APPEALS
STATE OF MINNESOTA,
Respondent,
vs.
MICHAEL ANTHONY CASILLAS,
Appellant.
A19-0576
Appeal from Dakota County District Court
File No. 19HA-CR-17-4702
Filed: December 23, 2019
Reversed
Larkin, Judge
Keith M. Ellison, Attorney General, Saint Paul,
Minnesota; and
James C. Backstrom, Dakota County Attorney, Anna
R. Light, Assistant County Attorney, Hastings,
Minnesota (for respondent).
John Arechigo, Arechigo & Stokka, P.A., St. Paul,
Minnesota (for appellant).
Considered and decided by Larkin, Presiding Judge;
Reyes, Judge; and Slieter, Judge.
33a

SYLLABUS
Minn. Stat. § 617.261 (2016) is facially overbroad
in violation of the First Amendment to the United
States Constitution, and the constitutional infirmity
cannot be remedied through a narrowing construction
or severance.
OPINION
LARKIN, Judge
Appellant challenges his conviction of felony
nonconsensual dissemination of private sexual images
under Minn. Stat. § 617.261, arguing that the statute
is constitutionally overbroad and therefore facially
invalid under the First Amendment to the United
States Constitution. We conclude that Minn. Stat. §
617.261 is facially overbroad in violation of the First
Amendment as a result of its lack of an intent-toharm requirement and its use of a negligence mens
rea. Because it is not possible to remedy those
constitutional defects through application of a
narrowing construction or by severing problematic
language from the statute, we invalidate the statute
and reverse appellant’s conviction and sentence.
FACTS
In 2017, respondent State of Minnesota charged
appellant Michael Anthony Casillas with felony
nonconsensual dissemination of private sexual
images under Minn. Stat. § 617.261, after A.K.M.
reported
that
Casillas
had
obtained
and
34a

disseminated, without her consent, private sexual
images of her. The complaint alleged that Casillas
obtained A.K.M.’s account log-in information for her
wireless and television provider accounts while they
were in a relationship and that after their
relationship ended, Casillas accessed those accounts
and obtained photos and videos containing sexual
images of A.K.M. Casillas told A.K.M. that he
planned to release the photos and videos. A.K.M.
objected. She later received a screenshot of one of the
videos that had been sent to 44 recipients and posted
online. The video showed A.K.M. engaging in a sexual
act with another individual.
Casillas moved to dismiss the charge, arguing that
Minn. Stat. § 617.261 is unconstitutionally overbroad
and vague in violation of the First Amendment. The
district court rejected Casillas’s First Amendment
challenge, reasoning in part that Minn. Stat. §
617.261 regulates obscenity, which is not protected by
the First Amendment.
The parties agreed to proceed under Minn. R.
Crim. P. 26.01, subd. 4, which allows a defendant to
stipulate to the state’s case to obtain review of a
district court’s dispositive pretrial ruling. Based on
the stipulated record, the district court concluded
that Casillas was guilty of felony nonconsensual
dissemination of private sexual images as charged
because he intentionally disseminated an identifiable
image of A.K.M. depicted in a sexual act.
The district court reasoned that Casillas “texted
A.K.M. and seemingly threatened her about posting
the image online, which demonstrates that he knew
this wasn’t an act based on her consent,” and that
Casillas “certainly knew that A.K.M. was not
consenting to him disseminating the image.” The
district court also determined that the state had
35a

proved that “the image was obtained under
circumstances in which [Casillas] knew or reasonably
should have known [that A.K.M.] had a reasonable
expectation of privacy.” The district court reasoned
that “an expectation of privacy regarding the image is
implicitly inherent from the nature of the act
depicted,” that Casillas’s threat to post the image
online demonstrated “that he understood it was an
image that should remain private,” and that
“A.K.M.’s response about prosecuting such conduct
further demonstrates that he reasonably should have
known that A.K.M. had a reasonable expectation of
privacy.”
The district court entered judgment of conviction,
denied Casillas’s motion for a downward dispositional
sentencing departure, and ordered him to serve a
presumptive
23-month
prison
term
under
Minnesota’s sentencing guidelines. Casillas appeals.
ISSUE
Did the district court err by rejecting Casillas’s
First Amendment challenge to Minn. Stat. § 617.261?
ANALYSIS
In this case, we are asked to decide whether Minn.
Stat. § 617.261 is overbroad and therefore facially
invalid under the First Amendment to the United
States Constitution.1 An appellate court reviews the
constitutionality of a statute de novo. Rew v.
Bergstrom, 845 N.W.2d 764, 776 (Minn. 2014).
Casillas also argues that the statute is unconstitutionally
vague and challenges his sentence. Because our review of
Casillas’s overbreadth argument is dispositive, we do not reach
those issues.
1

36a

“Ordinarily, laws are afforded a presumption of
constitutionality, but statutes allegedly restricting
First Amendment rights are not so presumed.”
Dunham v. Roer, 708 N.W.2d 552, 562 (Minn. App.
2006), review denied (Minn. Mar. 28, 2006).
The First Amendment provides that “Congress
shall make no law . . . abridging the freedom of
speech.”2 U.S. Const. amend. I. It applies to the states
through the Fourteenth Amendment. In re Welfare of
A.J.B., 929 N.W.2d 840, 846 (Minn. 2019). The
First Amendment establishes that the government
generally may not restrict expression because of its
messages, ideas, subject matter, or content. Id. The
First Amendment’s protections extend beyond
expressions regarding matters of public concern, and
“First Amendment principles apply with equal force
to speech or expressive conduct on the Internet.” Id.
“The [Supreme] Court has applied similarly conceived
First Amendment standards to moving pictures, to
photographs, and to words in books.” Kaplan v.
California, 413 U.S. 115, 119, 93 S. Ct. 2680, 2684
(1973). The state concedes, and we agree, that Minn.
Stat. § 617.261 restricts expressive conduct.
Casillas contends that Minn. Stat. § 617.261 is
unconstitutionally overbroad on its face. To succeed
in a typical facial constitutional challenge, a
challenger must establish that no set of
circumstances exists under which the challenged
statute would be valid or that the statute lacks any
plainly legitimate sweep. United States v. Stevens,
559 U.S. 460, 472, 130 S. Ct. 1577, 1587 (2010). But in
The Minnesota Constitution similarly protects the rights of all
persons to “freely speak, write and publish their sentiments on
all subjects, being responsible for the abuse of such right.” Minn.
Const. art. I, § 3. Although Casillas cites the Minnesota
Constitution, he argues for relief under the United States
Constitution.
2

37a

the First Amendment context, the Supreme Court
has recognized a second type of facial challenge,
whereby a law may be invalidated as overbroad if “a
substantial number of its applications are
unconstitutional, judged in relation to the statute’s
plainly legitimate sweep.” Id. at 473, 130 S. Ct. at
1587 (quotation omitted).
Thus, a long-recognized exception to the ordinary
rules of standing applies to facial overbreadth
challenges. State v. Mireles, 619 N.W.2d 558, 561
(Minn. App. 2000) (citing Broadrick v. Oklahoma, 413
U.S. 601, 611-12, 93 S. Ct. 2908, 2916 (1973)), review
denied (Minn. Feb. 13, 2001). Under this exception,
litigants may challenge a statute, “not because their
own rights of free expression are violated, but
because ‘the statute’s very existence may cause
others not before the court to refrain from
constitutionally protected speech or expression.’” Id.
(quoting Broadrick, 413 U.S. at 611-12, 93 S. Ct. at
2916). “The rationale for allowing an overbreadth
challenge, even when a statute is constitutional as
applied in a particular circumstance, is that
enforcement of an overbroad law chills protected
speech, which inhibits the free exchange of ideas.”
State v. Hensel, 901 N.W.2d 166, 170 (Minn. 2017)
(quotation omitted).
The
Minnesota
Supreme
Court
recently
summarized the analysis applicable to a First
Amendment overbreadth challenge as follows:
We may reverse a conviction for
violating the First Amendment if we
determine
that
the
statute
is
unconstitutionally overbroad on its face.
A statute may be facially overbroad in
violation of the First Amendment when
it prohibits constitutionally protected
activity, in addition to activity that may
38a

be
prohibited
without
offending
constitutional rights. Because of the fear
of a chilling effect on speech, the
traditional rules of standing have been
altered in the First Amendment context
to allow litigants to challenge statutes
as unconstitutionally overbroad even
when their own
conduct
could,
consistent
with
constitutional
requirements, be punished under a
narrowly drawn statute.
A.J.B., 929 N.W.2d at 847 (citations and quotations
omitted).
In sum, Casillas may bring a facial overbreadth
challenge to Minn. Stat. § 617.261 even if his
dissemination of A.K.M.’s image is not protected by
the First Amendment. Asto the applicable analysis:
The first step in an overbreadth
challenge is to construe the challenged
statute; it is impossible to determine
whether a statute reaches too far without
first knowing what the statute covers.
Once we understand the scope and
sweep of the statute, we ask whether its
reach is limited to unprotected
categories of speech or expressive
conduct.
Id. (citations and quotations omitted). If the statute is
not limited to unprotected categories of speech or
expressive conduct,
we turn to the core overbreadth inquiry:
Does the statute prohibit a substantial
amount of constitutionally protected
speech? This inquiry looks to the
conduct that is criminalized by the
statute—some of which is unprotected
speech or conduct and some of which is
39a

speech and expressive conduct protected
by the First Amendment—and asks
whether the protected speech and
expressive
conduct
make
up
a
substantial proportion of the behavior
the statute prohibits compared with
conduct and speech that are unprotected
and may be legitimately criminalized. A
statute is not substantially overbroad
merely because one can conceive of some
impermissible applications.
Id. at 847-48 (citations and quotations omitted).
If the statute prohibits a substantial amount of
protected expressive conduct, we consider whether
applying a narrowing construction or severing
problematic language from the statute would remedy
the constitutional defect. Id. at 848. If the statute is
substantially overbroad and cannot be saved by a
narrowing construction or severance, “the remaining
option is to invalidate the statute.” Id. (quotation
omitted). “Because the overbreadth doctrine has the
potential to void an entire statute, it should be
applied only as a last resort and only if the degree of
overbreadth is substantial and the statute is not
subject to a limiting construction.” Dunham, 708
N.W.2d at 565 (quotation omitted).
With these principles in mind, we turn to the
language of Minn. Stat. § 617.261.
1. Minn. Stat. § 617.261 has a broad sweep.
Minn. Stat. § 617.261 provides:
It is a crime to intentionally disseminate
an image of another person who is
depicted in a sexual act or whose
intimate parts are exposed, in whole or
in part, when:
(1) the person is identifiable:
40a

(i) from the image itself, by the
person depicted in the image or by
another person; or
(ii) from
personal
information
displayed in connection with the
image;
(2) the actor knows or reasonably should know
that the person depicted in the image does not
consent to the dissemination; and
(3) the image was obtained or created under
circumstances in which the actor knew or
reasonably should have known the person
depicted had a reasonable expectation of
privacy.
Minn. Stat. § 617.261, subd. 1 (emphasis added).
“‘Dissemination’ means distribution to one or more
persons, other than the person depicted in the image,
or publication by any publicly available medium.” Id.,
subd. 7(b). “‘Image’ means a photograph, film, video
recording, or digital photograph or recording.” Id.,
subd. 7(d). “‘Intimate parts’ means the genitals, pubic
area, or anus of an individual, or if the individual is
female, a partially or fully exposed nipple.” Id., subd.
7(e).
As to penalties, the statute provides that
normally, whoever violates Minn. Stat. § 617.261,
subd. 1, is guilty of a gross misdemeanor. Id., subd.
2(a). However, a person who violates subdivision 1 is
guilty of a felony and may be sentenced to
imprisonment for up to three years if one of the
following factors is present:
(1) the person depicted in the image
suffers financial loss due to the
dissemination of the image;
(2) the actor disseminates the image with
intent to profitfrom the dissemination;
41a

(3) the actor maintains an Internet Web
site, online service, online application, or
mobile application for the purpose of
disseminating the image;
(4) the actor posts the image on a Web
site;
(5) the actor disseminates the image
with intent to harass the person depicted
in the image;
(6) the actor obtained the image by
committing a violation of section 609.52,
609.746, 609.89, or 609.891; or
(7) the actor has previously been

convicted under this chapter.
Id., subd. 2(b) (emphasis added). “‘Harass’ means an
act that would cause a substantial adverse effect on
the safety, security, or privacy of a reasonable
person.” Id., subd. 7(c).
Minn. Stat. § 617.261 is not violated if:
(1) the dissemination is made for the
purpose of a criminal investigation or
prosecution that is otherwise lawful;
(2) the dissemination is for the purpose
of, or in connection with, the reporting of
unlawful conduct;
(3) the dissemination is made in the
course of seeking or receiving medical or
mental health treatment and the image
is protected from further dissemination;
(4) the image involves exposure in public
or was obtained in a commercial setting
for the purpose of the legal sale of goods
or services, including the creation of
artistic products for sale or display;

42a

(5) the image relates to a matter of
public interest and dissemination serves
a lawful public purpose;
(6) the dissemination is for legitimate
scientific
research or
educational
purposes; or
(7) the dissemination is made for legal
proceedings and is consistent with
common practice in civil proceedings
necessary for the proper functioning of
the criminal justice system, or protected
by court order which prohibits any
furtherdissemination.
Id., subd. 5.
In sum, Minn. Stat. § 617.261 applies to a single
intentional dissemination of an image of “another
person who is depicted in a sexual act or whose
intimate parts are exposed” if certain requirements
are met. Id., subd. 1. Those requirements are based
in part on a broad mens rea requirement: the
disseminator “knows or reasonably should know that
the person depicted in the image does not consent to
the dissemination” and “the image was obtained or
created under circumstances in which the actor knew
or reasonably should have known the person depicted
had a reasonable expectation of privacy.” Id. That
“knows or reasonably should know” standard is a
negligence mens rea that allows a person to be
convicted under Minn. Stat. § 617.261 even if he did
not actually know that the person depicted in the
image did not consent to the dissemination or that
the image was obtained or created under
circumstances in which the person depicted had a
reasonable expectation of privacy. See A.J.B., 929
N.W.2d at 850 (describing a “knows or has reason to
know” standard as a broad negligence mens rea).
43a

Moreover, Minn. Stat. § 617.261 does not require
proof that the disseminator caused or intended a
specified harm. Instead, the statute enhances a
criminal dissemination to a felony offense if “the
person depicted in the image suffers financial loss
due to the dissemination of the image” or “the actor
disseminates the image with intent to harass the
person depicted in the image.” Minn. Stat. § 617.261,
subd. 2(b)(1), (5). Thus, the statute’s harm-causing
and intent-to-harm elements do not limit the
expressive conduct proscribed by the statute; they
merely determine the level of criminality assigned to
expressive conduct within the statute’s reach.
In sum, Minn. Stat. § 617.261 covers a wide range
of expressive conduct. It covers the dissemination of a
sexual image with knowledge that the person
depicted in the image did not consent to the
dissemination and that the image was obtained or
created under circumstances in which the person
depicted had a reasonable expectation of privacy. But
it also covers the dissemination of a sexual image
even if the disseminator did not know that the
subject of the image did not consent to the
dissemination, did not know that the image was
obtained or created under circumstances indicating
that the person depicted had a reasonable expectation
of privacy, and did not cause or intend to cause a
specified harm. Given the statute’s application to the
latter set of circumstances, its sweep is broad.
2. Minn. Stat. § 617.261’s sweep is not limited
to expressive conduct that is categorically
excluded from First Amendment protection.
We next address the state’s argument that Minn.
Stat. § 617.261 does not implicate the First
Amendment because it regulates only unprotected
expressive conduct. “[T]he Supreme Court has long
44a

permitted some content-based restrictions in a few
limited areas, in which speech is of such slight social
value as a step to truth that any benefit that may be
derived from it is clearly outweighed by the social
interest in order and morality.” State v. MelchertDinkel, 844 N.W.2d 13, 19 (Minn. 2014) (quotation
omitted). Exceptions to First Amendment protections
fall into several delineated categories that include
speech or expressive conduct designed to incite
imminent lawless action, obscenity, defamation,
speech integral to criminal conduct, so-called fighting
words, child pornography, fraud, true threats, and
speech presenting some grave and imminent threat
the government has the power to prevent. A.J.B., 929
N.W.2d at 846 (citing United States v. Alvarez, 567
U.S. 709, 717, 132 S. Ct. 2537, 2544 (2012)).
Obscene material is unprotected by the First
Amendment. Miller v. California, 413 U.S. 15, 23-24,
93 S. Ct. 2607, 2614-15 (1973). But “[s]tate statutes
designed to regulate obscene materials must be
carefully limited,” and the Supreme Court has
confined the permissible reach of such regulation to
works that depict or describe sexual conduct. Id. Such
a regulation must “be limited to works which, taken
as a whole, appeal to the prurient interest in sex,
which portray sexual conduct in a patently offensive
way, and which, taken as a whole, do not have serious
literary, artistic, political, or scientific value.” Id. at
24, 93 S. Ct. at 2615.
Based on that definition of obscenity, the state
contends that Minn. Stat. § 617.261 regulates only
obscenity. The state argues that “[t]he average person
would find that [Minn. Stat. § 617.261] regulates
content that appeals to the prurient interest.” The
state notes that a prurient interest in sex has been
defined as a morbid, shameful interest in sex, Brockett
45a

v. Spokane Arcades, Inc., 472 U.S. 491, 504-05, 105 S.
Ct. 2794, 2802 (1985), and asserts that “people who
disseminate nonconsensual, private sexual images
evince” such an interest in sex. The state further
argues that Minn. Stat. § 617.261 “regulates content
that depicts, in a patently offensive way, specifically
defined sexual conduct,” asserting that “[w]hat makes
the proscribed images patently offensive is, again,
their nonconsensual nature.” Specifically, the state
argues that “[i]mages depicting someone’s nudity or
sexuality taken in private but shared publicly
without consent are patently offensive.” Lastly, the
state argues that the images proscribed by Minn.
Stat. § 617.261 lack serious literary, artistic, political,
and scientific value.
The state’s obscenity argument is not aligned with
the definition of obscenity. The definition requires, in
part, that an allegedly obscene work “portray sexual
conduct in a patently offensive way.” Miller, 413 U.S.
at 24, 93 S. Ct. at 2615. That is, the definition asks
whether the content of the image is patently
offensive. See The American Heritage Dictionary of
the English Language 1374 (5th ed. 2018) (defining
“portray” as “[t]o depict or represent pictorially; make
a picture of” and “[t]o describe or depict in a certain
way”). But the state’s argument is not based on the
image’s content. Instead, the state focuses on the
circumstances
surrounding
the
image’s
dissemination. The state appears to argue that any
image of another person who is depicted in a sexual
act or whose intimate parts are exposed portrays
sexual conduct in a patently offensive way if the
image is disseminated without the subject’s consent.
Although we agree that such nonconsensual
dissemination is offensive, that is not the test for
determining whether a work is obscene. Even though
46a

some images subject to regulation under Minn. Stat. §
617.261 might satisfy the definition of obscenity and
therefore may be proscribed consistent with the First
Amendment, we cannot say, as a matter of law, that
every image subject to regulation under the statute
portrays sexual conduct in a patently offensive way
and is therefore beyond First Amendment protection.
The state also contends that Minn. Stat. § 617.261
does not implicate the First Amendment because it is
a privacy regulation. But privacy is not one of the
recognized “delineated categories” of speech excepted
from First Amendment protection. See A.J.B., 929
N.W.2d at 846 (noting established exceptions). And
“[t]he Supreme Court has been reluctant to expand
these categories of unprotected speech.” Id.; see
Stevens, 559 U.S. at 472, 130 S. Ct. at 1586 (“Our
decisions . . . cannot be taken as establishing a
freewheeling authority to declare new categories of
speech outside the scope of the First Amendment.”).In
fact, the Supreme Court has stated, “We in no sense
suggest that speech on private matters falls into one
of the narrow and well-defined classes of expression
which carries so little social value, such as obscenity,
that the State can prohibit and punish such
expression by all persons in its jurisdiction.” Connick
v. Myers, 461 U.S. 138, 147, 103 S. Ct. 1684, 1690
(1983).
We recognize that the disseminations proscribed
under Minn. Stat. § 617.261 could invade the privacy
rights of others and that, under certain
circumstances,
such
disseminations
may be
proscribed consistent with the First Amendment. See
Dunham, 708 N.W.2d at 566 (rejecting a First
Amendment challenge to Minnesota’s criminal
harassment statute after concluding that the statute
was narrowly tailored because it “only regulates
47a

speech or conduct that constitutes . . . substantial
invasions of one’s privacy” and its focus was “to
prohibit repeated and unwanted acts, words, or
gestures that have or are intended to have a
substantial adverse effect on the safety, security, or
privacy of another”). But we cannot say, as a matter
of law, that every dissemination regulated under
Minn. Stat. § 617.261 is beyond the protection of the
First Amendment as an invasion of privacy.
In sum, Minn. Stat. § 617.261’s sweep is not
limited to expressive conduct that is categorically
excluded from First Amendment protection.3
3. Minn. Stat. § 617.261 prohibits conduct
that is beyond its legitimate sweep.
Having concluded that Minn. Stat. § 617.261
regulates expressive conduct that is not categorically
excluded from First Amendment protection, we ask
whether it has a legitimate sweep and, if so, whether
the statute extends beyond that sweep.
The state argues that it
has a significant interest in seeking to
deter the nonconsensual dissemination of
private, sexually explicit images. This
conduct can be construed as a form of
domestic abuse, as abusers use the
existence of these sexually explicit
Two state supreme courts have rejected arguments similar to
those made by the state. People v. Austin, N.E.3d _, , 2019
WL 5287962, at *6-7 (Ill. Oct. 18, 2019) (rejecting state’s
argument that “speech that invades privacy” should be
categorically excluded from First Amendment protection); State
v. VanBuren, 214 A.3d 791, 798-807 (Vt. 2019) (rejecting state’s
argument that “nonconsensual pornography, as defined in [a]
Vermont statute, falls outside of the realm of constitutionally
protected speech for two reasons: such speech amounts to
obscenity, and it constitutes an extreme invasion of privacy
unprotected by the First Amendment”).
3

48a

images to threaten, intimidate, or coerce
their partners. It is also a form of sexual
harassment that seeks to degrade and
humiliate thosedepicted. . . .
The government has a strong interest in
preventing the harm done to victims of
nonconsensual porn; that harm is farreaching. Victims have lost jobs, been
forced to change schools, change their
names, and have been subjected to reallife stalking and harassment.
(Citations and quotations omitted.)
We certainly agree that the state’s harmpreventing policy interest is legitimate.4 Minnesota’s
First Amendment caselaw indicates that speech and
expressive conduct can be proscribed in an effort to
serve that interest without violating the First
Amendment. For example, in Dunham, this court
held that Minn. Stat. § 609.748, subd. 1(a)(1) (2004),
which defines harassment, does not substantially
infringe on constitutionally protected speech or
expression, and is not facially overbroad. 708 N.W.2d
The state cites scholarly review articles that describe the
problem of nonconsensual dissemination of private, sexually
explicit images and the indisputable harm that it causes.See Zak
Franklin, Comment, Justice for Revenge Porn Victims: Legal
Theories to Overcome Claims of Civil Immunity by Operators of
Revenge Porn Websites, 102 Calif. L. Rev. 1303, 1304 (2014)
(emphasizing that harm done to victims of revenge porn is “often
vast” and that many victims report that this practice has had
detrimental effects on their lives); see also Mudasir Kamal &
William J. Newman, Revenge Pornography: Mental Health
Implications and Related Legislation, 44 J. Am. Acad.
Psychiatry & Law 359, 362(2016) (explaining long-term personal
and psychological consequences of revenge porn and noting that
“the disseminated photographs or videos may continue to haunt
[victims]).
4

49a

at 559. This court reasoned in part that “the language
of the statute is directed against . . . speech or
conduct that is intended to have a substantial
adverse effect.” Id. at 566. Similarly, in State v.
Stockwell, this court held that the stalking provision
in Minn. Stat. § 609.749, subd. 2(a)(2) (2006), is not
unconstitutionally void for facial overbreadth in part
because “it requires that the actor knows her conduct
will cause fear and causes that reaction.” 770 N.W.2d
533, 535, 539-40 (Minn. App. 2009), review denied
(Minn. Oct. 28, 2009).
Like the statutes in Dunham and Stockwell,
Minn. Stat. § 617.261 serves the legitimate harmpreventing interest advanced by the state by
proscribing disseminations that knowingly cause or
are intended to cause a specified harm. But Minn.
Stat. § 617.261 reaches much further, subjecting to
punishment those who disseminate sexual images
without either knowingly causing or intending to
cause a specified harm. Casillas relies on that reach
in support of his overbreadth challenge. He notes the
statute’s “lack of an intent to harm element or a
requirement that the dissemination actually resulted
in harm” and asserts that “[t]he negligent knowledge
requirement just adds to the . . . constitutional
concern.” He argues that Minn. Stat. § 617.261
“punishes the act of dissemination itself without any
accompanying criminal intent element or causation of
harm, under a negligent standard,” and that it “lacks
the sufficient criminal intent element that may have
narrowedthe law to avoid constitutional infirmity.”
Caselaw supports Casillas’s argument that Minn.
Stat. § 617.261’s lack of an intent- to-harm element,
coupled with a negligence mens rea, runs afoul of the
First Amendment. For example, in A.J.B., the
Minnesota Supreme Court held that Minn. Stat. §
50a

609.749, subd. 2(6) (2018), violated the First
Amendment because it was facially overbroad. 929
N.W.2d at 844. That statute provided that a person
who harassed another by committing the following
act was guilty of a gross misdemeanor: “repeatedly
mails or delivers or causes the delivery by any means,
including electronically, of letters, telegrams,
messages, packages, through assistive devices for
people with vision impairments or hearing loss, or any
communication
made
through
any
available
technologies or other objects.” Minn. Stat. § 609.749,
subd. 2(6). In invalidating the statute, the Minnesota
Supreme Court noted that it “subject[ed] even
negligent conduct to criminal sanction” and that it
“criminalize[d] communications even when the
person [did] not know—much less intend—that the
communication [would] frighten, threaten, oppress,
persecute, or intimidate the victim.” A.J.B., 929
N.W.2d at 854-55. The supreme court concluded that
“[t]he statute’s inclusion of a negligence standard
[made] it more likely that the statute [would] have a
chilling effect on expression protected by the First
Amendment.” Id. at 855 (quotation omitted).
The Minnesota Supreme Court also held that
Minn. Stat. § 609.795, subd. 1(3) (2018), violated the
First Amendment because it was facially overbroad.
Id. at 844. That statute provided that whoever “with
the intent to abuse, disturb, or cause distress,
repeatedly mails or delivers or causes the delivery by
any means, including electronically, of letters,
telegrams, or packages” is guilty of a misdemeanor.
Minn. Stat. § 609.795, subd. 1(3). In holding that the
statute was unconstitutionally overbroad, the
supreme court noted that Minn. Stat. § 609.795
included a specific-intent element that limited the
sweep of the statute by excluding negligent acts from
51a

the statute’s reach. A.J.B., 929 N.W.2d at 858. The
supreme
court
said
that
“[u]nder
certain
circumstances, a specific-intent requirement may
sufficiently limit the reach of a statute into protected
speech and expressive conduct to avoid overbreadth.”
Id. at 860. But the supreme court concluded that the
“intentional conduct” element was not a sufficient
limitation to save the statute, reasoning in part that
“the limiting effect of the specific-intent requirement
is counterbalanced by the absence. . . of any
requirement that the victim actually suffer any
harm.” Id. at 861. In sum, “[b]y foregoing any
requirement that the harm actually occur, the
Legislature
criminalized
behavior,
including
substantial speech and expressive conduct, that will
have no impact on the legitimate purpose of the
statute: to prevent the harm.” Id.
Similarly, in Hensel, the Minnesota Supreme
Court held that Minn. Stat. § 609.72, subd. 1(2)
(2016), which prohibited disturbing assemblies or
meetings, was facially unconstitutional under the
First Amendment because it was substantially
overbroad. 901 N.W.2d at 168. The supreme court
reasoned in part that
[r]ather
than
prohibiting
only
intentional conduct, . . . the statute’s
mens-rea element prohibits actions done
with knowledge or reasonable grounds to
know that the act will tend to disturb
others. This means that an individual
need only perform an act that is
negligent, which allows the statute to
reach all types of acts, intentional or not,
that have a tendency to disturb others.
The statute’s inclusion of a negligence
standard makes it more likely that
52a

the statute will have a chilling effect
on expression protected by the First
Amendment, the key concern of the
overbreadth doctrine.
Id. at 174 (quotations omitted).
Conversely, in State v. Muccio, the Minnesota
Supreme Court held that Minn. Stat. § 609.352, subd.
2a(2) (2016), which prohibits an adult from
participating in the electronic transmission of
information relating to or describing the sexual
conduct of any person, if the communication is
directed at a child and the adult acts with the specific
intent to arouse the sexual desire of any person, is not
substantially overbroad in violation of the First
Amendment. 890 N.W.2d 914, 917-18 (Minn. 2017).
The supreme court reasoned in part that “because of
its specific-intent requirement, the statute does not
target broad categories of speech.” Id. at 928 (citation
omitted); see also State v. Washington-Davis, 881
N.W.2d 531, 533, 539 (Minn. 2016) (holding that
“Minnesota Statutes § 609.322, subd. 1a(1)-(2) (2014),
which criminalizes the promotion of prostitution and
the solicitation of individuals to practice prostitution,
is not substantially overbroad in violation of the First
Amendment” in part because the statute criminalizes
the solicitation and promotion of individuals to
engage in sexual conduct only if the sexual conduct is
done for the purpose of satisfying the actor’s sexual
impulses).
This court has similarly considered the impact of a
specific-intent requirement in an overbreadth
analysis. See Stockwell, 770 N.W.2d at 539; Dunham,
708 N.W.2d at 566. Most recently, in Linert v.
MacDonald, this court held that Minn. Stat. §
211B.02 (2016), which prohibits candidates from
knowingly making false claims of support or
53a

endorsement, is not facially overbroad in violation of
the First Amendment. 901 N.W.2d 664, 665 (Minn.
App. 2017). This court reasoned in part that “the
statute’s specific-intent requirement—that false
claims be knowingly made—ensures that the statute
does not target broad categories of speech.” Id. at 669
(quotation omitted).
Two other state supreme courts have considered
the impact of an intent-to-harm element—or lack
thereof—when analyzing facial First Amendment
challenges to laws similar to Minn. Stat. § 617.261.
Austin, 2019 WL 5287962, at *19-20; VanBuren, 214
A.3d at 812. For example, the Illinois Supreme Court
rejected an overbreadth challenge to 720 Ill. Comp.
Stat. 5/11-23.5(b) (2016), which criminalizes the
nonconsensual dissemination of private sexual
images. Austin, 2019 WL 5287962, at *16-20. In
doing so, it rejected “the circuit court’s criticism . . .
that the statute does not require proof of an illicit
motive or malicious purpose.” Id. at *19. The Illinois
Supreme Court recognized that
most state laws prohibiting the
nonconsensual dissemination of private
sexual images expressly require some
form of malicious purpose or illicit
motive as a distinct element of the
offense. . . .
In contrast, the legislatures of four
states, including our General Assembly,
have chosen not to expressly include
“malice” as a distinct element of the
offense.
Id.
In rejecting the circuit court’s reasoning, the
Illinois Supreme Court noted “[t]he circuit court did
not, however, cite legal authority for the proposition
54a

that a criminal statute necessarily must contain an
illicit motive or malicious purpose to survive an
overbreadth challenge.” Id. But our supreme court
has provided us with such authority, and we are
bound by that precedent. See State v. Curtis, 921
N.W.2d 342, 343 (Minn. 2018) (holding that “[t]he
court of appeals is bound by supreme court
precedent”).
The Vermont Supreme Court also rejected a facial
First Amendment challenge to its statute banning
disclosure of nonconsensual pornography, Vt. Stat.
Ann. tit. 13, § 2606 (2015). VanBuren, 214 A.3d at
814. In doing so, the Vermont Supreme Court
considered whether Vermont’s statute was narrowly
tailored to serve a compelling state interest.
VanBuren, 214 A.3d at 807, 811-14. In concluding
that it was narrowly tailored, the Vermont Supreme
Court reasoned in part that:
[D]isclosure is only criminal if the
discloser knowingly discloses the images
without the victim’s consent. We
construe this intent requirement to
require knowledge of both the fact of
disclosing, and the fact of nonconsent.
Individuals are highly unlikely to
accidentally violate this statute while
engaging in otherwise permitted speech.
In fact, § 2606 goes further, requiring
not only knowledge of the above
elements, but a specific intent to harm,
harass, intimidate, threaten, or coerce
the person depicted or to profit
financially.
Id. at 812 (emphasis added) (emphasis omitted)
(citations omitted).

55a

Unlike the Vermont statute, Minn. Stat. § 617.261
lacks a specific intent-to-harm element. Although
Minn. Stat. § 617.261 has a legitimate harmpreventing purpose, its lack of a specific-intent
requirement and use of a negligence mens rea allows
it to reach protected First Amendment expression
that neither causes nor is intended to cause a
specified harm. That reach goes beyond the
legitimate state interest justifying the proscription of
otherwise protected First Amendment expression.
Based on the Minnesota caselaw described above, we
conclude that Minn. Stat. § 617.261 proscribes
expressive conduct in violation of the First
Amendment.
4. Minn. Stat. § 617.261 is overbroad in
violation of the First Amendment.
Having determined that Minn. Stat. § 617.261
proscribes expressive conduct in violation of the
First Amendment, we turn to the critical inquiry:
Does Minn. Stat. § 617.261 prohibit a substantial
amount of constitutionally protected speech?
In this age of expansive internet communication,
images may be disseminated, received, and observed
with ease. As the Court of Appeals of Texas noted in
considering a First Amendment challenge to a law
similar to Minn. Stat. § 617.261:
Today, a person can share a photograph
or video with an untold number of
people with a mere click of a button. The
daily sharing of visual material, for
many, has become almost ritualistic. And
once the act of sharing is accomplished,
it is highly questionable whether that
act ever can be completely rescinded.
But assuming that the visual material is
not otherwise protected, these persons
56a

are acting within their rights when they
share visual material with others.
Ex parte Jones,
S.W.3d
,
, 2018 WL
2228888, at *7 (Tex. App. May 16, 2018) (footnote
omitted), review granted (Tex. Crim. App. July 25,
2018). The Texas court noted that
a Facebook user with her account
settings set to share posts as “public” can
share a picture to her Facebook page
that not only can be viewed by the nearly
two billion Facebook users, but also by
any other person with internet access
whose access to Facebook is not
otherwise restricted.
Id. at *7 n.16.
Anyone who is familiar with our current American
culture is likely aware that the free flow of
information described above contains noncommercial
images of people depicted in sexual acts, or whose
intimate parts are exposed, and that the subjects of
such images often consent to their dissemination.5
Indeed, some individuals, beyond merely consenting,
seek to promote the broad dissemination of such
images, for either political or economic reasons. See,
e.g., Debra L. Logan, Note, Exposing Nipples as
Political Speech, 41 Law & Psychol. Rev. 173, 179
(2017) (“Some women bare their breasts to advocate
the position that public decency laws should treat men
and women equally; others confront thestigmatization
of their bodies as a form of political theater to draw
“We now live in an age where celebrities purposely leak their
sex tapes to the Internet, hoping they’ll go viral, and thereby
garner further fame and riches. Stars ‘mistakenly’ post their
nude pictures to Twitter (oops!).” Michael L. Baroni, New
“Revenge Porn” Law Is Impotent, Orange County Law., Feb.
2014, at 12.
5

57a

attention, whether toward or against a political
candidate, to advocate a political position, or simply to
defend the rights of breastfeeding mothers.”); Clay
Calvert & Robert D. Richards, Porn in Their Words:
Female Leaders in the Adult Entertainment
Industry
Address
Free
Speech, Censorship,
Feminism, Culture and the Mainstreaming of Adult
Content, 9 Vand. J. Ent. & Tech. L. 255 (2006)
(compiling views of women in the adultentertainment industry).
In this context, Minn. Stat. § 617.261’s negligence
mens rea is problematic. The statute does not define
or explain the circumstances that should cause
someone who observes an image described in Minn.
Stat. § 617.261 to reasonably know that the person
depicted in the image did not consent to its
dissemination or that the image was obtained or
created under circumstances in which the person
depicted had a reasonable expectation of privacy.
Depending on one’s sensibilities and tolerance of
sexual images on publicly available mediums,
reasonable people could reach different conclusions
regarding the privacy expectations associated with
such images, rendering the reasonable knowledge
standard highly subjective. Indeed, in concluding that
Casillas was guilty, the district court reasoned that
“an expectation of privacy regarding the image is
implicitly inherent from the nature of the act
depicted,” indicating that some might view a sexual
image
as
private
and
its
dissemination
nonconsensual regardless of the actual expectations
of the person depicted in the image.
The dissenting opinion in People v. Austin sets
forth a telling hypothetical that reflects our concern:
A hypothetical posed to the State during
oral argument illustrates this point. Two
58a

people go out on a date, and one later
sends the other a text message
containing
an
unsolicited
and
unappreciated nude photo. The recipient
then goes to a friend, shows the friend
the photo, and says, “look what this
person sent me.” Has the recipient
committed a felony? The State conceded
that the recipient had, assuming the
recipient knew or should have known
that the photo was intended to remain a
private communication.
2019 WL 5287962, at *24 (Garman, J., dissenting).
It is not difficult to envision a substantial number
of situations in which a person observes an image
that may have been disseminated in violation of
Minn. Stat. § 617.261 and further disseminates that
image without knowing that the subject of the image
did not consent to the original dissemination, without
knowing that the image was obtained or created
under circumstances indicating that the person
depicted had a reasonable expectation of privacy, and
without intending to cause a specified harm. Given
the ease with which impermissible disseminations
under the statute may be further disseminated
without the intent to harm necessary to proscribe
expressive conduct without violating the First
Amendment, we conclude that Minn. Stat. § 617.261
has the potential to reach a substantial amount of
protected expressive conduct.6
Moreover, that substantial reach has the very
chilling effect that the overbreadth doctrine is
Although the statute includes certain exemptions, they do not
meaningfully limit the statute’s impermissible reach of further
disseminations as described above. See Minn. Stat.
§ 617.261, subd. 5.
6

59a

intended to prevent. See Hensel, 901 N.W.2d at 174
(describing the “chilling effect on expression protected
by the First Amendment” as “the key concern of the
overbreadth doctrine”). An observer of an image on a
publicly available medium that depicts a person in a
sexual act, or whose intimate parts are exposed,
would be wise to refrain from further disseminating
that image or risk criminal prosecution under Minn.
Stat. § 617.261 based on a prosecutor’s subjective
belief that the image’s content should have caused
the observer to know that the person depicted did not
consent to the dissemination and that the image was
obtained or created under circumstances indicating
that the person depicted had a reasonable expectation
of privacy. And that risk exists even though such
images are often present on publicly available
mediums with the consent of the people depicted.7
In sum, Minn. Stat. § 617.261 proscribes a
substantial amount of protected expressive conduct,
and it is therefore overbroad in violation of the First
Amendment.
5. The remedy for the First Amendment
violation is to invalidate Minn. Stat. § 617.261.
Having determined that Minn. Stat. § 617.261 is
overbroad in violation of the First Amendment, we
consider whether applying a narrowing construction
or severing problematic language from the statute

The state argues that the risk of erroneous prosecution of those
who disseminate a sexual image without intent to harm is
lessened because “the prosecutor would have to [determine that]
there [was] a reasonable knowledge . . . that they would have
known.” That argument does not alleviate our constitutional
concern. See Stevens, 559 U.S. at 480, 130 S. Ct. at 1591 (“We
would not uphold an unconstitutional statute merely because
the Government promised to use it responsibly.”).
7

60a

would remedy the constitutional defect. A.J.B., 929
N.W.2d at 848.
When a court determines that a statute is
unconstitutional, it must invalidate as much of the
statute as is necessary to eliminate the
unconstitutionality. Archer Daniels Midland Co. v.
State, 315 N.W.2d 597, 600 (Minn. 1982). We look to
the intent of the legislature to fashion a remedy
consistent with that intent. Id. “[W]e are not to sever
a statute if the remaining valid provisions, standing
alone, are incomplete and are incapable of being
executed in accordance with the legislative intent.”
A.J.B., 929 N.W.2d at 848 (quotation omitted).
Although we can strike a severable statutory
provision if it is unconstitutional and void, “we
cannot add language to a statute in order to render it
constitutionally permissible.” Chapman v. Comm’r of
Revenue, 651 N.W.2d 825, 836 (Minn. 2002)
(quotation omitted).
The state argues that Minn. Stat. § 617.261 is
subject to a limiting construction that can remedy its
constitutional defect. For example, the state suggests
that we construe the statute to refer only to
obscenity. But limiting the statute’s application to
obscenity is inconsistent with the plain language of
the statute, which defines the images subject to
regulation much more broadly than the recognized
definition of obscenity, indicating that the legislature
did not intend such a limitation.
The state also suggests that we construe the
statute to refer only to substantial invasions of
privacy, which is in line with the parameters set forth
in the caselaw above. Consistent with that
suggestion, the state recommends that we sever the
negligence standard from the statute, arguing, “There
are no apparent reasons to doubt that the Legislature
61a

would have enacted the statute without the
negligence standard.”
Again, the constitutional defect in Minn. Stat. §
617.261 stems from its lack of an intent-to-harm
requirement and its use of a negligence mens rea.
Correcting that defect would require us to rewrite the
statute. We would have to sever the negligence mens
rea standards from subdivision 1(2) and (3) of Minn.
Stat. § 617.261. Doing so would limit the statute’s
reach to those who knew both that the person
depicted in the image did not consent to the
dissemination and that the image was obtained or
created under circumstances indicating that the
person depicted had a reasonable expectation of
privacy. Such circumstances could show intent to
harm. See State v. Cooper, 561 N.W.2d 175, 179
(Minn. 1997) (stating that because intent is a state of
mind, it is “generally proved circumstantially—by
drawing inferences from the defendant’s words and
actions in light of the totality of the circumstances,”
and that when considering circumstantial evidence of
intent, “the jury may infer that a person intends the
natural and probable consequences of his actions”).
Although severing the negligence mens rea
standards would limit the statute’s reach to
circumstances in which the disseminator intended
harm—consistent with Minnesota caselaw upholding
First Amendment proscriptions based on the state’s
legitimate harm- preventing interest—it would also
result in a statute that classifies an intentionally
harmful dissemination as both a gross misdemeanor
and a felony. See Minn. Stat. § 617.261, subd. 2(a)
(stating that normally, whoever violates Minn. Stat. §
617.261, subd. 1, is guilty of a gross misdemeanor),
(b)(5) (stating that a felony results if “the actor
disseminates the image with intent to harass”). We
62a

would have to add language to the statute to reconcile
that conflict.
In sum, we agree with the state that there is no
apparent reason to doubt that the legislature would
have enacted the statute without the negligence
standard. But achieving that result on the
legislature’s behalf requires us to “‘perform[] . . .
plastic surgery upon the face of the [statute],’ rather
than just adopting an alternative, reasonable
construction of the statute’s actual words.” Hensel,
901 N.W.2d at 176-77 (alterations in original)
(quoting Shuttlesworth v. City of Birmingham, 394
U.S. 147, 153, 89 S. Ct. 935, 940 (1969)). This we will
not do. See Stevens, 559 U.S. at 480, 130 S. Ct. at
1592 (explaining that rewritinga statute to “conform it
to constitutional requirements” would constitute a
“serious invasion of the legislative domain”). Such a
“shave-a-little-off-here and throw-in-a-few-wordsthere statute . . . may well be a more sensible statute,
but at the end of the day, it bears little resemblance to
the statute that the Legislature actually passed.”
Hensel, 901 N.W.2d at 180.
If a statute is “unable to be saved by a narrowing
construction or severance, the remaining option is to
invalidate the statute.” A.J.B., 929 N.W.2d at 848
(quotation omitted). We recognize that “invalidation
of a statute for substantial overbreadth is strong
medicine that should be used only as a last resort.”
Washington-Davis, 881 N.W.2d at 540 (quotation
omitted). But Minn. Stat. § 617.261 reaches a
substantial amount of protected speech in violation of
the First Amendment, and we cannot remedy the
constitutional infirmity through a narrowing
construction or severance. We therefore hold that
Minn. Stat. § 617.261 is facially overbroad in
violation of the First Amendment to the United
63a

States Constitution. Consequently, Minn. Stat. §
617.261 is void.
Our holding in no way changes our view that
Casillas’s conduct in violation of Minn. Stat. §
617.261—of which he was convicted—is abhorrent.
Nor should it be read as failing to appreciate the
significant harm that the nonconsensual dissemination
of private sexual images causes. The state
legitimately seeks to punish that conduct. But the
state cannot do so under a statute that is written too
broadly and therefore violates the First Amendment.
In the end, we are constitutionally obligated to
faithfully apply the law.
DECISION
Because Minn. Stat. § 617.261 is facially invalid
under the First Amendment to the United States
Constitution, we reverse Casillas’s conviction and
sentence under that statute, without addressing his
remaining arguments for relief.
Reversed.

64a

APPENDIX C
STATE OF MINNESOTA
DAKOTA COUNTY DISTRICT COURT
FIRST JUDICIAL DISTRICT
STATE OF MINNESOTA,
Plaintiff,
vs.
MICHAEL ANTHONY CASILLAS,
Defendant.
19HA-CR-17-4702
Findings of Fact, Conclusions of Law, Order and
Memorandum
Filed: June 13, 2018
Judge Messerich
The above-entitled matter came before the
Honorable Kathryn D. Messerich, Judge of District
Court, on April 6, 2018, at the Dakota County
Judicial Center, Hastings, Minnesota, for a Contested
Omnibus hearing upon Defendant’s Motion to
Dismiss. The issue before this Court is whether
Minnesota Statutes § 617.261 is unconstitutional as
overbroad and/or vague on its face. The parties were
permitted to submit written argument and the Court
took the matter under advisement on May 18, 2018.
The State was represented by Assistant Dakota
County Attorney, Torrie J. Schneider. Defendant was
65a

personally present and represented by his attorney,
John Arechigo.
Based upon the proceedings, this Court makes the
following:
FINDINGS OF FACT
1. Defendant is charged with one count of
Nonconsenual Dissemination of Private Sexual
Images pursuant to Minnesota Statutes § 617.261.
2. It is alleged in the Complaint that Defendant
had been in a relationship with A.K.M. and during
that relationship Defendant had access to A.K.M.’s
account log in information. When the relationship
ended, it is alleged that Defendant used that log in
information to obtain photographs and videos from
A.K.M.’s cloud account, including sexually explicit
material. He threatened A.K.M. via text that he
would release them. On June 20, 2017 it is alleged
that Defendant sent a sexually explicit video of
A.K.M. to 44 recipients.
3. Defendant has filed a motion to dismiss
claiming that the statute is unconstitutional as
overbroad and/or vague on its face.
CONCLUSIONS OF LAW
1. Minnesota
Statutes
§617.261
is
not
unconstitutionally overbroad.
2. Minnesota Statutes §617.261 is not void-forvagueness.
ORDER
1. Defendant’s motion to dismiss is DENIED.

66a

2. The attached memorandum is incorporated
herein as additional findings and rationale for the
Court’s decision.
/s/ Kathryn D. Messerich
Kathryn D. Messerich
Judge of District Court
Dated: June 13, 2018
MEMORANDUM
Defendant argues that Minnesota Statutes
§617.261 is unconstitutional under both the First
Amendment of the United States Constitution and
Article I, §§3, 7 of the Minnesota Constitution. He
claims that the statute violates First Amendment
protected speech rights, is unconstitutional contentbased restriction on speech, is unconstitutionally
overbroad, and unconstitutionally vague.
“Minnesota statutes are presumed constitutional
and our power to declare a statute unconstitutional
should be exercised with extreme caution and only
when necessary.” In re Haggerty, 448 N.W.2d 363,
364 (Minn. 1989). When interpreting statutes, courts
presume that the “legislature does not intend to
violate the constitution of the United States or of this
state.” Minn. Stat. §645.17 (2018). The Court must
interpret the statute, giving “effect to the legislature’s
intent.” State v. Crawley, 819 N.W.2d 94, 102 (Minn.
2012). When determining the meaning of a statute,
the Court interprets words “according to their
common and approved usage.” Minn. Stat. § 645.08(1)
(2017).

67a

Minnesota
Statutes
§
617.261
NONCONSENSUAL
DISSEMINATION
OF
PRIVATE SEXUAL IMAGES reads:
Subdivision 1. Crime. It is a crime to
intentionally disseminate an image of
another person who is depicted in a
sexual act or whose intimate parts are
exposed, in whole orin part, when:
(1) the person is identifiable:
(i) from the image itself, by the person
depicted in the image or by another
person; or
(ii) from personal information displayed
in connection with the image;
(2) the actor knows or reasonably should
know that the person depicted in the
image does not consent to the
dissemination; and
(3) the image was obtained or created
under circumstances in which the actor
knew or reasonably should have known
the person depicted had a reasonable
expectation of privacy.
Minnesota Statutes § 617.261 (2017).
The party challenging a statute bears the initial
burden of demonstrating that it implicates the First
Amendment. State v. Stockwell, 770 N.W.2d 533, 537
(Minn. Ct. App. 2009). The “burden is typically on the
State to show that a content-based restriction does
not violate the First Amendment. On the other hand,
the party challenging the constitutionality of a
statute bears the burden to show that protected
speech is implicated in the first place.” State v.
Washington-Davis, 881 N.W.2d 531, 537, n.8.
Otherwise, it would “create a rule that all conduct is
presumptively expressive.”, Stockwell, 770 N.W.2d at
68a

537, (quoting Clark v. Cmty. For Creative NonViolence, 468 U.A. 288, 293 n.5 (1984).
Here, the Defendant must demonstrate that the
statute implicates the First Amendment. The First
Amendment
protects
offensive,
emotionally
distressing, or outrageous speech and includes some
expressive activity, not just words. See State. v.
Machholz, 574 N.W.2d 415, 419 (Minn. 1998), U.S. v.
Stevens, 559 U.S. 460 (2010), Boos v. Barry, 485 U.S.
312, 322 (1982) (citation omitted). Forms of speech
that may be regulated because they fall outside the
protections of the First Amendment include
obscenity, defamation, fraud, incitement and speech
integral to criminal conduct. Stevens, 559 U.S. at 46869 (internal citations omitted). The speech that this
statute regulates is dissemination of private sexual
images, specifically of a person in a sexual act, or
whose intimate parts are exposed.
Obscenity is a category of speech that falls outside
the constitutional protections of
the
First
Amendment. “[O]bscene speech – sexually explicit
material that violates fundamental notions of decency
– is not protected by the First Amendment.” U.S. v.
Williams, 553 U.S. 285, 293 (2008). The U.S.
Supreme Court has defined a test for obscenity in
Miller v. California, as (a) whether ‘the average
person, applying contemporary community standards’
would find that the work, taken as a whole, appeals
to the prurient interest; (b) whether the work depicts
or describes, in a patently offensive way, sexual
conduct specifically defined by the applicable state
law; and (c) whether the work, taken as a whole,
lacks serious literary, artistic, political, or scientific
value.” Miller, 413 U.S. at 24 (citations omitted).
While it may be argued that not all sexual images
are going to fall under the definition of “obscenity”,
69a

such as artistic works, this Court finds that the
statute does regulate obscenity under the framework
provided by the case law. The statute has excluded
images that have serious literary, artistic, political,
or scientific value. The statute is specific to
nonconsensual dissemination of images. That
indicates that it does not involve the “free exchange of
ideas” that the First Amendment is intended to
protect.
“[U]nprotected areas of speech can, consistently
with the First Amendment, be regulated because of
their constitutionally proscribable content.” State v.
Crawley, 819 N.W.2d 94, 109 (Minn. 2012), (quoting
R.A.V. v. City of St. Paul, 505 U.S. 377, 383 (1992).
Obscenity is an unprotected area of speech. There are
“three exceptions to the general prohibition against
content-based discrimination within unprotected
categories of speech.” Crawley at 110. One of the
exceptions is “[w]hen the basis for the content
discrimination consists entirely of the very reason the
entire class of speech at issue is proscribable, no
significant danger of idea or viewpoint discrimination
exists.” R.A.V., 505 U.S. at 388. The statute at issue
regulates obscenity. There is no argument that it
contains any type of viewpoint discrimination. The
statute does not implicate or chill otherwise
legitimate speech. The statute is a constitutional
content-based regulation ofobscenity.
If the First Amendment were implicated, where
conduct is involved, the Court has to determine if “the
overbreadth of a statute must not only be real, but
substantial as well, judged in relation to the statute’s
plainly legitimate sweep.” Broadrick v. Oklahoma,
413 U.S. 601, 615 (1973). “A statute is overbroad on
its face if it prohibits constitutionally protected
activity, in addition to activity that may be prohibited
70a

without offending constitutional rights.” State v.
Stockwell, 770, N.W.2d 533, 538 (Minn. Ct. App. 2009)
(quoting Machholz at 419). The overbreadth doctrine
should be applied “only as a last resort.…” Machholz
at 419, quoting Broadrick at 603.
The Court has found that the statute does not
regulate protected speech and is not required to
address the issue of overbreadth. Even so, any
degree of overbreadth is not sufficiently substantial
so as to find that it is unconstitutional on its face.
This statute balances the safety and security rights of
individuals against an actor’s right to communicate.
The statute is very specific as to the images and
dissemination it prohibits and is also limited by an
intent requirement and a knowledge element. In
reviewing the statute in its entirety, and in light of
the applicable case law, the Court finds that the
statute is not overbroad and does not significantly
compromise recognizedFirst Amendment protections.
Based on the above rulings, this Court does not
address whether the statute is narrowly tailored to
serve the government’s compelling interest of
protecting victims of “revenge porn” in order to pass
the “strict scrutiny” test.
Defendant also argues that the statute at issue is
unconstitutionally vague. “The void-for-vagueness
doctrine requires that a ‘penal statute define the
criminal offense with sufficient definiteness that
ordinary people can understand what conduct is
prohibited and in a manner that does not encourage
arbitrary and discriminatory enforcement.’” State v.
Bussman, 741 N.W.2d 79, 83 (Minn. 2007) (quoting
Kolender v. Lawson, 461 U.S. 352, 357 (1983)). “Close
cases can be imagined under virtually any statute.
The problem that poses is addressed, not by the
doctrine of vagueness, but by the requirement of proof
71a

beyond a reasonable doubt.” U.S. v. Williams, 553
U.S. 285, 306 (2008), citations omitted. “What
renders a statute vague is no the possibility that it
will sometimes be difficult to determine whether the
incriminating fact it establishes has been proved; but
rather the indeterminacy of precisely what that fact
is.” Id. The Court in the Williams case went on to
state that it “struck down statutes that tied criminal
culpability to …wholly subjective judgments without
statutory definitions, narrowing context, or settled
legal meanings.” Id.
In this case, the statute has numerous explicit
definitions to aid in determining what specific act is
prohibited. A number of the terms are also defined in
other parts of the criminal code, such as “know” and
“intentionally”. The statute has an intent
requirement – that the actor “intentionally
disseminate an image…”; that the “actor knows or
reasonably should know…”; and that “the image was
obtained or created under circumstances in which the
actor knew or reasonably should have known the
person depicted…” Minn. Stat § 617.261, subd. 1,
emphasis added. The statute is not void for
vagueness. For the above reasons, Minnesota
Statutes §617.261 is constitutional and Defendant’s
motion to dismiss is denied.
K.D.M.

72a

APPENDIX D
MINNESOTA STATUTES
SECTION 617.261
617.261 NONCONSENSUAL DISSEMINATION OF
PRIVATE SEXUAL IMAGES.

Subdivision 1. Crime. It is a crime to
intentionally disseminate an image of another
person who is depicted in a sexual act or whose
intimate parts are exposed, in whole or in part, when:
It is a crime to intentionally disseminate an image
of another person who is depicted in a sexual act or
whose intimate parts are exposed, in whole or in part,
when:
(1) the person is identifiable:
(i) from the image itself, by the person depicted in
the image or by another person; or
(ii) from personal information displayed in
connection with the image;
(2) the actor knows or reasonably should know that
the person depicted in the image does not consent to
the dissemination; and
(3) the image was obtained or created under
circumstances in which the actor knew or reasonably
should have known the person depicted had a
reasonable expectation of privacy.
Subd. 2. Penalties. (a) Except as provided in
paragraph (b), whoever violates subdivision 1 is guilty
of a gross misdemeanor.
(b) Whoever violates subdivision 1 may be
sentenced to imprisonment for not more than three
years or to payment of a fine of $5,000, or both, if one
of the following factors is present:
73a

(1) the person depicted in the image suffers
financial loss due to the dissemination of the image;
(2) the actor disseminates the image with intent to
profitfrom the dissemination;
(3) the actor maintains an Internet Web site,
online service, online application, or mobile
application for the purpose of disseminating the
image;
(4) the actor posts the image on a Web site;
(5) the actor disseminates the image with intent
toharass the person depicted in the image;
(6) the actor obtained the image by committing a
violation of section 609.52, 609.746, 609.89, or
609.891; or
(7) the actor has previously been convicted under
this chapter.
Subd. 3. No defense. It is not a defense to a
prosecution under this section that the person
consented to the capture or possession of the image.
Subd. 4. Venue. Notwithstanding anything to the
contrary in section 627.01, an offense committed
under this section may be prosecuted in:
(1) the county where the offense occurred;
(2) the county of residence of the actor or victim or
in the jurisdiction of the victim’s designated address
if the victim participates in the address
confidentiality program established by chapter 5B; or
(3) only if venue cannot be located in the counties
specified under clause (1) or (2), the county where any
image is produced, reproduced, found, stored,
received, or possessed in violation of this section.
Subd. 5. Exemptions. Subdivision 1 does not
apply when:
(1) the dissemination is made for the purpose of a
criminal investigation or prosecution that is
otherwise lawful;
74a

(2) the dissemination is for the purpose of, or in
connection with, the reporting of unlawful conduct;
(3) the dissemination is made in the course of
seeking or receiving medical or mental health
treatment and the image is protected from further
dissemination;
(4) the image involves exposure in public or was
obtained in a commercial setting for the purpose of
the legal sale of goods or services, including the
creation of artistic products for sale or display;
(5) the image relates to a matter of public interest
and dissemination serves a lawful public purpose;
(6) the dissemination is for legitimate scientific
researchor educational purposes; or
(7) the dissemination is made for legal proceedings
and is consistent with common practice in civil
proceedings necessary for the proper functioning of
the criminal justice system, or protected by court
order which prohibits any furtherdissemination.
Subd. 6. Immunity. Nothing in this section shall
be construed to impose liability upon the following
entities solely as a result of content or information
provided by another person:
(1) an interactive computer service as defined in
United States Code, title 47, section 230, paragraph
(f), clause (2);
(2) a provider of public mobile services or private
radio services; or
(3) a telecommunications network or broadband
provider.
Subd. 7. Definitions. (a) For purposes of this
section, the following terms have the meanings given.
(b) "Dissemination" means distribution to one or
more persons, other than the person depicted in the
image, or publication by any publicly available
medium.
75a

(c) "Harass" means an act that would cause a
substantial adverse effect on the safety, security, or
privacy of a reasonable person.
(d) "Image" means a photograph, film, video
recording, or digital photograph or recording.
(e) "Intimate parts" means the genitals, pubic area,
or anus of an individual, or if the individual is female, a
partially or fully exposed nipple.
(f) "Personal information" means any identifier
that permits communication or in-person contact
with a person, including:
(1) a person's first and last name, first initial and
last name, first name and last initial, or nickname;
(2) a person's home, school, or work address;
(3) a person's telephone number, e-mail address,
or social media account information; or
(4) a person's geolocation data.
(g) "Sexual act" means either sexual contact or
sexual penetration.
(h) "Sexual contact" means the intentional touching
of intimate parts or intentional touching with seminal
fluid or sperm onto another person's body.
(i) "Sexual penetration" means any of the
following acts:
(1) sexual intercourse, cunnilingus, fellatio, or
anal intercourse; or
(2) any intrusion, however slight, into the genital
or anal openings of an individual by another's body
part or an object used by another for this purpose.
(j) "Social media" means any electronic medium,
including an interactive computer service, telephone
network, or data network, that allows users to create,
share, and view user-generated content.
Subd. 8 Other crimes. Nothing in this section
shall limit the power of the state to prosecute or

76a

punish a person for conduct that constitutes any other
crime under any other law of this state.
History: 2016 c 126 s 9

77a

